<html>
<title> - EXAMINE COASTAL EROSION CAUSES, EFFECT AND SOLUTIONS IN LOUISIANA, INCLUDING THE LOUISIANA COASTAL AREA ECOSYSTEM RESTORATION PLAN PROPOSED FOR AUTHORIZATION IN THE WATER RESOURCES DEVELOPMENT ACT OF 2005</title>
<body><pre>[Senate Hearing 109-990]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 109-990
 
                    EXAMINE COASTAL EROSION CAUSES, 
                  EFFECT AND SOLUTIONS IN LOUISIANA, 
    INCLUDING THE LOUISIANA COASTAL AREA ECOSYSTEM RESTORATION PLAN 
                PROPOSED FOR AUTHORIZATION IN THE WATER 
                   RESOURCES DEVELOPMENT ACT OF 2005 

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                    AUGUST 26, 2005--NEW ORLEANS, LA

                               __________

  Printed for the use of the Committee on Environment and Public Works


      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________

                     U.S. GOVERNMENT PRINTING OFFICE

37-446 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001





















               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED NINTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
LINCOLN CHAFEE, Rhode Island         BARBARA BOXER, California
LISA MURKOWSKI, Alaska               THOMAS R. CARPER, Delaware
JOHN THUNE, South Dakota             HILLARY RODHAM CLINTON, New York
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
JOHNNY ISAKSON, Georgia              BARACK OBAMA, Illinois
DAVID VITTER, Louisiana
                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director

                                  (ii)

  





















                            C O N T E N T S

                              ----------                              
                                                                   Page

                    AUGUST 26, 2005--NEW ORLEANS, LA
                           OPENING STATEMENTS

Vitter, Hon. David, U.S. Senator from the State of Louisiana.....     1

                               WITNESSES

Angelle, Scott, secretary, Louisiana Department of Natural 
  Resources......................................................    10
    Prepared statement...........................................    41
Boasso, Hon. Walter J., Senator, Louisiana State Legislature, 
  Senate 
  District 1, St. Bernard and Plaquemines Parishes...............    14
Duval, Alexis, chairwoman of the board, Houma-Terrebonne Chamber 
  of Commerce....................................................    27
    Prepared statement...........................................    64
Francis, Roy, executive director, LA1 Coalition..................    33
    Prepared statement...........................................    69
Lanctot, Randy, executive director, Louisiana Wildlife Federation    30
    Prepared statement...........................................    66
Landrieu, Hon. Mary, U.S. Senator from the State of Louisiana....     4
Penland, Shea, director and professor, Pontchartrain Institute of 
  Environmental Sciences, and Chairman, Department of Geology and 
  Geophysics, University of New Orleans..........................    29
    Prepared statement...........................................    65
Randolph, Charlotte, president, Lafourche Parish.................    15
    Prepared statement...........................................    61
Riley, Major General Don T., Director of Civil Works, U.S. Army 
  Corps of Engineers.............................................     8
    Prepared statement...........................................    40
Zeringue, Jerome, executive director, Terrebonne Levee and 
  Conservation District..........................................    24
    Prepared statement...........................................    62

                          ADDITIONAL MATERIAL

Statement, of John Lopez, director of coastal sustainability, 
  Lake Pontchartrain Basin Foundation, Matairie, LA..............    70


                    EXAMINE COASTAL EROSION CAUSES, 
                  EFFECT AND SOLUTIONS IN LOUISIANA, 
    INCLUDING THE LOUISIANA COASTAL AREA ECOSYSTEM RESTORATION PLAN 
 PROPOSED FOR AUTHORIZATION IN THE WATER RESOURCES DEVELOPMENT ACT OF 
                                  2005

                              ----------                              


                        FRIDAY, AUGUST 26, 2005

                                        U.S. Senate
                 Committee on Environment and Public Works,
                                                   New Orleans, LA.
    The committee met pursuant to notice, at 10 o'clock a.m. at 
the University of New Orleans (UNO) Research and Technology 
Park, 2045 Lakeshore Drive, Room 236, Lindy Boggs Conference 
Center, New Orleans, LA. Hon. David Vitter presiding.
    Present: Senator Vitter.

 OPENING STATEMENT OF HON. DAVID VITTER, U.S. SENATOR FROM THE 
                       STATE OF LOUISIANA

    Senator Vitter. We will now convene the U.S. Committee on 
the Environment and Public Works to review the causes and 
effects of coastal land loss in Louisiana and the proposed 
solutions to address this crisis. Thanks to all of you for 
being here.
    Now, in Louisiana, though we're not too strict on needing 
reasons to throw a party, I think we have some real good 
substantive reasons this year: Several major victories on the 
Federal level, WRDA, which is moving through the process; the 
Highway bill, which is now signed into law; the Energy bill, 
which is signed into law with the major coastal provision. I'm 
very hopeful we're just getting started.
    I want to begin this year by saying thank you to all the 
folks in this room and elsewhere all around Louisiana. All the 
citizens of Louisiana who came together and are dedicated on 
this issue, dedicated to the restoration of Louisiana's coast, 
so please give yourselves and everyone who deserves it a round 
of applause.
    [Applause.]
    Together we are making a difference with some initial 
successes, and more work needs to be done but we are making a 
difference.
    There are so many people to thank, including some here. I 
can't go through the entire list but I certainly want to point 
out the work of Secretary Angelle on behalf of the Governor and 
her administration, Sidney Coffee and Randy Hanchey with the 
State; and, certainly my partner in the Senate, Senator 
Landrieu, who we're going to hear from in just a few minutes. 
Also Jason, Bubba and Kathleen in Mary's office. Also the two 
of us want to join together and thank the whole Louisiana 
congressional Delegation, which is very much united as a team 
on this important work, and that's paying off.
    In my opening statement, I want to very briefly go through 
the recent history of coastal restoration efforts and where 
things currently stand today. In 2000, the U.S. House of 
Representatives passed the Conservation and Reinvestment Act, 
better known as CARA, and that was originally authored in the 
House by Congressmen Billy Tauzin, Don Young, and John Dingle.
    Of course, it was authored in the Senate by Senator 
Landrieu, who is with us today. The bill passed by a 3 to 1 
margin and would have provided $311 million to the State of 
Louisiana annually. Despite valiant efforts and a lot of hard 
work by Mary and others in the Senate, it got bogged down 
really in some of the instruction there.
    So we set out again--my predecessors, I should say, set 
out, the whole delegation in 2002 and 2003 in CARA, moving it 
along but not quite to the ultimate finish line. That really 
paved the way for our continuing work, including our victory in 
the Energy bill, just a few weeks ago which I'll get to in a 
minute.
    At the same time we've all been working hard on another key 
piece of Federal legislation, and that is WRDA, the Water 
Resources Development Act. We had significant inclusion of a 
Louisiana coastal provision in WRDA last year that was about 
$325 million a program for coastal Louisiana.
    It didn't pass last year so we came back and redoubled our 
efforts on WRDA this year with really good success. This year 
we're able to increase that authorization to $1.9 billion in 
the current Senate WRDA, that comes before the jurisdiction of 
this committee on which I serve, Environment and Public Works. 
So we're eager to continue the work to pass WRDA through the 
Senate and have it signed by President Bush.
    That finally brings me to the Energy bill. As I said, all 
of this work, including CARA, led to our efforts on this year's 
Energy bill. That was finally passed into law and signed by 
President Bush on August of this year. We were able to include 
in it--Through a lot of folks' hard work, certainly Mary, also 
myself, working on the Senate side, we had a Senate floor 
amendment, which passed, to provide the State with $540 million 
to restore the coast. That was part of a billion-dollar, 4-year 
provision for the coastal-producing States, Louisiana getting 
the lion's share of that $540 million.
    A full 35 percent of these funds will go directly to the 
parishes, coastal parishes, to help; directly to them for their 
battle on coastal erosion. Then the remaining 65 percent will 
go to the effort statewide, led by the State, the U.S. Army 
Corps of Engineers and others to extend this. This is the first 
time in decades that the U.S. Senate has passed mandatory 
spending associated with oil and gas royalties for our coast.
    This, together with the Environment and Public Work 
Committee's WRDA bill provision authorizing a joint effort of 
seven Federal Agencies and a $1.9 billion program, are major 
actions toward comprehensive restoration.
    These actions represent the substance of three of the five 
bills, included in my coast package that I introduced earlier 
this year with the active partnership and help of everyone in 
the Louisiana congressional Delegation.
    So these are huge victories for all of us that everyone 
worked on and that we're all very proud of and it's a great 
start, but, of course, it's just a start on which we need to 
build.
    You know, for decades we've been talking about 
comprehensive restoration. I want to be clear, this $540 
million Energy bill and this $1.9 billion authorization are for 
construction to actually begin restoration, not just more 
studies, reviews or reports.
    I also want to be clear that this is the start and not the 
end. This is not the end and this is not in place of the $15 
billion comprehensive restoration program identified in the 
Corps in the coast 2050 plan, this case is just a deposit on 
that $15 billion program. There will be much more to come as 
there needs to be.
    Note, at the national level, Louisiana coastal area program 
as compared--has been compared to other large scale projects, 
like the Florida Everglades and Chesapeake Bay.
    Growing up here I've spent a tremendous amount of time in 
coastal Louisiana. I've also been to Chesapeake Bay in Florida. 
I am here to tell you that there is absolutely no comparison. 
Those areas, those projects are important and I'm supportive of 
them, but there truly is no comparison, including in terms of 
the national significance of what we're dealing with here in 
coastal Louisiana.
    Maryland's crab cakes use Louisiana blue crab meat, I'll 
have you know. I understand many of the problems Florida is 
experiencing are attributable to the decisions of State and ad 
interest and water interest and others have made there on the 
ground for temporary political or parochial or State gain.
    Further, Florida has repeatedly rejected efforts to address 
our Nation's need to enhance energy secured and reduce our 
alliance on foreign energy sources by beginning production of 
Federal energy resources offshore.
    It may be politically correct for Florida to consume energy 
and oppose production off their coast, but the reality is that 
they're utilizing up to 23 times the energy they produce and 
claim energy production offshore will adversely impact their 
sunbathing, and we are paying $2.60 a gallon for gasoline in 
New Orleans today; meanwhile, what is the very different 
picture in Louisiana?
    The different picture is we've provided over $120 billion 
to the Federal Government in energy royalties from our offshore 
production and we're one of the few States that produce much 
more energy than we consume so that States like Florida and 
California and some other coastal States can keep the lights 
and their home air conditioned without really doing their part.
    I wanted to hold this hearing today to talk about this: 
Where we are, where we go from here, because we are at a truly 
historic and crucial point.
    As we begin to implement our comprehensive restoration 
strategy, we must keep in mind that the same activities that 
make our coast important have the potential to derail this 
effort.
    We have come this far because we have had open 
communications. We've been inclusive and we've worked together. 
So we need to continue in that vein.
    Louisiana has grown into the top seafood producer in the 
lower 48 States. The Census Bureau determined that Louisiana is 
the most productive work force in the country. We have 
developed the largest port system in the world. We produce more 
energy offshore than the next five most-productive States 
combined. We're doing great things on our working coast.
    If we're going to continue to move forward, we must 
continue to include fishermen, maritime community, oil and gas 
community, and most importantly, all citizens of South 
Louisiana.
    We really have an excellent group of panelists today in 
three distinct panels, and I look forward to hearing from all 
of them.
    According to the rules of the committee, I'm going to ask 
each witness to keep oral statements to about 5 minutes, and, 
of course, full written statements will be included in the 
reference. So let's move on to our hearing and our first panel, 
and our panel is a very distinguished panel, Senator Mary 
Landrieu will testify on this topic.
    I want to thank Mary for being a full partner in the 
Senate, for being extremely active and energetic on this issue 
from the moment she ran for the Senate. She's clearly made 
coastal restoration an absolute top priority and serves on two 
extremely important committees for this effort, the Senator 
Energy Committee and the Senate Appropriations Committee.
    Mary, welcome.

STATEMENT OF HON. MARY LANDRIEU, U.S. SENATOR FROM THE STATE OF 
                           LOUISIANA

    Senator Landrieu. Thank you, Senator Vitter, and thank you 
all for being a part of this very important hearing today. I 
want to start by thanking Chairman Inhofe, who is a great 
colleague of ours and partner of the Senate that is really 
focused on his efforts as chairman of this important committee 
on Louisiana's coast.
    I want to thank Senator David Vitter for conducting this 
hearing because now, as a new member of this committee, he is 
very strategically placed to continue to push this issue, not 
only here at home but throughout the Nation. So having this 
hearing in Louisiana and right here in New Orleans at the 
University of New Orleans is quite important. I thank Senator 
Vitter.
    Let me just make a couple of very brief comments, because 
the Senator covered a great deal of the importance of the 
coast. First let me say that the loss of much of America's 
wetlands is indeed catastrophic. With quick, decisive and bold 
action, this wetland can be restored and rebuilt.
    The cost sharing of the Federal Government should be, in my 
opinion, 75/25; more aggressive than the current cost sharing. 
I think the witnesses that are on the first and second panel 
will give the details for the record of this conference why 
this should be the case.
    The magnitude of the security and economic benefits of this 
working coast, the only energy coast in the Nation, will 
justify this--this cost sharing.
    Unfortunately, as Senator Vitter knows and is committed to 
help me reverse this decision, the current administration is 
arguing for a 50/50 cost share. I understand there will be a 
lot of testimony about that, but let me in my opening remarks 
be right on the record.
    Because of the uniqueness of Louisiana's coast, because of 
the unique and special contribution the Corps of Engineers is 
certainly aware of, we're going to have to receive--in order to 
restore the coast the way we know we need to, we are going to 
have to receive a more generous cost share. We think we deserve 
it. The testimony that will be laid down today will hopefully 
move us in that direction.
    Let me just add a few things to what Senator Vitter said 
about the history here. The foundation for a lot of this work 
that we are now pushing forward through the WRDA bill and 
through the Energy bill was initially laid down by our 
predecessor, Senator John Breaux, when he passed the Breaux 
Act--and somebody can put the date into the record in 1990.
    The Breaux Act was not related to energy; it wasn't 
necessarily related to WRDA, but it was through the Finance 
Committee that there was a special tax that was directed, 
particularly to Louisiana, and that $20 to $50 million a year, 
which Senator Breaux and Congressman Tauzin, particularly 
Congressman Tauzin helped, and John was on the Finance 
Committee--laid that down and that gave us the science. The 
Corps has used that money with the State and the previous 
Administration, the Foster Administration, and now in the 
Blanco Administration, to lay down the science that we now know 
the coast can be restored.
    Ten years ago that was a real question. But we believe with 
the work that's been done and the research that our university 
and the Corps have done primarily, that we know that the coast 
can be saved. We have a plan now to save the coast.
    The challenge is that the plan is going to cost us between 
$15 and $20 billion. So we have to get as many different 
sources of Federal revenue as we can so that we can actually 
accomplish this task.
    The people of Louisiana cannot afford to pick up this tab. 
They shouldn't be asked to, considering, as Senator Vitter has 
stated, the tremendous contributions that this working coast 
makes to the bottom line of the economy and to the direct 
impact positively to the General Fund.
    So I'm going to submit the rest of my statement to the 
record, but I wanted to add that. The work on the education 
work that was done through CARA, I think in large measure laid 
much of the ground work for--at least for the recognition of 
the importance of this issue to Louisiana and to the Nation.
    Then, finally, as the Senator mentioned on this final 
Energy bill, it is not insignificant and should not be 
underestimated the importance of only $2 billion being in the 
entire Energy bill for the Nation in direct spending in it's 
entirety, $2 billion. This coastal project for the energy 
coast, for Texas, Mississippi, Louisiana, and Alabama, 
California, and Alaska--and I'll get to California in a 
minute--we got half of that money directed; half, $1 billion. 
Of that, Louisiana has 54 percent.
    So the Federal Government is awake. They're recognizing 
what we're doing. If this, hopefully, committee that David is 
conducting lays down testimony, we can build on that record and 
really begin to bring the huge dollars that it's going to take 
to restore this coast and make a tremendous contribution to our 
State and the Nation.
    Thank you. Senator Vitter.
    Senator Vitter. Thank you, Senator.
    I've never had the opportunity to cross-examine you before 
so I'm certainly not going to let that pass now. I did just 
want to ask you a few things that you've been very involved in, 
and one is this cost share.
    As you know, a sort of typical standard cost share for 
projects is 65 percent Federal. I believe, as you do, there's a 
lot of justification for going higher than that, say, 75 
percent, but the Administration has proposed significantly 
less, 50 percent.
    If you can speak a little more to that and why we should--
we should not only get 65 but higher.
    Senator Landrieu. Well, I think the Senator points out a 
great point. The normal cost share in the WRDA bill for all 
projects of this nature are 65/35. It's been a standard the 
Corps has used. The Corps will be here to testify to that.
    The Administration is, I think, wrongly proposing that this 
plan have a 50/50 cost share. I'm hoping the testimony today 
will make clear into the record that our cost share should 
really be 75/25 because of the direct and substantial 
contribution that this coast makes, uniquely--uniquely to the 
Federal Government.
    The Everglades is not host to the oil and gas industry. The 
Great Lakes do not drain two-thirds of the United States. The 
Chesapeake does not produce anywhere near either energy or 
fisheries resources that this Delta does. It is the only one 
like it in North America.
    So the Federal Government must understand that they have 
more of an interest; therefore, they should pick up more of the 
tab. Not only to mention that Louisiana, while we're a proud 
State, we are not as wealthy as some of the other States are: 
Connecticut and New York.
    We keep the lights on in Connecticut. We keep the lights on 
in New York, and we keep the lights on in California.
    Our people don't have the same level of income to support 
this massive project, and we shouldn't have to.
    So, Senator Vitter, I know you feel as passionately as I do 
about this, and I hope we can lay this testimony down in a way 
that we might persuade some of our colleagues that you and I 
are correct about this, and change some minds in Washington.
    Senator Vitter. Mary, I know a big part of this challenge, 
nationally, that you have taken a leadership role in is the 
education of challenge; educating a lot of folks, certainly 
other U.S. Senators.
    How do you think that has progressed in the last several 
years?
    Senator Landrieu. Well, one word to describe it would be an 
amazing turnaround. You know this, and others in the room know 
this, but 8 years ago when the testimony--and the Energy 
Committee will show this, Senator Pete Domenici, who chaired 
the Energy Committee stated 8 years ago at a public hearing 
that he was opposed, unequivocally opposed to revenue sharing 
with the Federal Government for Louisiana.
    Eight years later, after many conversations and many 
hearings and all of the work that went on and a flight over the 
marsh, he led the effort--republican Chair of the Energy 
Committee, led the effort to make this possible.
    So, Senator Vitter, I can only say that the many trips that 
you and others and our delegation and the Governors have hosted 
for Members of Congress worked because we can see the results; 
and even with Senator Bingham, who you know initially opposed 
it, once he got down here to see it for himself.
    So I'm hoping--You know, our Governor's extended an 
invitation to the President to come see the coast. Senator 
Vitter and I have urged him to take her up on that offer. I 
hope the President himself will come and see it. The Corps 
obviously sees it; they work on it every day. Hopefully we can 
get, I don't know, a little bit more energy, if you will, about 
what we're trying to do.
    Senator Vitter. Great.
    The last question: Could you briefly describe the 
differences between onshore and offshore royalty treatment 
under Federal law and the enormous disadvantage that it creates 
for us?
    Senator Landrieu. Absolutely.
    Every State came into the union with a different boundary 
and Louisiana's boundary was set by Federal law decades ago at 
3 miles. Outside of that three-mile limit, the State basically 
does not share directly in any royalties, severance with the 
Federal Government.
    With one exception, that exception is between 3 and 6 miles 
there was dispute about leases and where the oil was, you know, 
being drilled, whether on Federal land or State land, so Bennet 
Johnson and John Breaux--this was before we were even in 
Congress--argued successfully with the Federal Government to 
get 27 percent of that funding, which is--now makes up the AG 
Fund, which we refer to, $640 million.
    The legislature spent 500--spent 100--put 540 in a trust 
fund and that money is still with us today. I used to manage it 
when I was State treasurer. It's now over a billion dollars, 
and it funds the university that you're sitting in, so it's 
going to good use; and all the universities.
    The problem is, is that we're generating now off of that 3 
miles about $5 billion a year--it used to be about $2 and now 
it's up to $5, and it's projected to go up to $8.
    The reason is, is because drilling is moving offshore--I 
mean from onshore to offshore to deeper and deeper waters. So 
one idea Senator Vitter has suggested, that we move our 
boundaries out, which we may be able to do; whether other 
States will allows us to move our boundaries without them 
moving theirs, we don't know, but I think Senator Vitter has a 
great idea to move it out if we can, or we can get a percentage 
of everything out from zero to 200 miles because the outer 
Continental Shelf is 200 miles, from zero to 200. That is 
basically off limits except for drilling--except off the coast 
of Louisiana, Mississippi, Alabama, and Texas.
    So any way we do it, whether we move our boundaries or just 
increase our percentage, we need to get a couple of hundred 
million dollars a year, at a minimum, from that source because 
the General Fund is running a pretty significant deficit as we 
speak.
    Senator Vitter. Thank you very much, Senator. Thank you for 
being here today. More importantly, thanks for all your work on 
this particular issue.
    Senator Landrieu. Thank you, Senator.
    Senator Vitter. We'd like to invite our next panel to take 
the stage, and that includes General Riley, Secretary Angelle, 
Senator Boasso and President Randolph.
    As they get seated up here, I'm going to go ahead and begin 
the introductions so we can move right to their testimony.
    First, we have Major General Riley, Director of Civil Works 
and Deputy Chief of the U.S. Army Corps of Engineers. By the 
way, General, the new star looks great on your uniform. 
Congratulations on that.

  STATEMENT OF MAJOR GENERAL DON T. RILEY, DIRECTOR OF CIVIL 
              WORKS, U.S. ARMY CORPS OF ENGINEERS

    General Riley. Thank you.
    Senator Vitter. I also wanted to mention a quick story 
involving General Riley. You know, in Washington we have 
strategically placed a number of Louisianians all over the 
Federal Government to work on our issues and protect our 
interests. A lot of folks up there refer to these folks as the 
``Louisiana Mafia.''
    Well, we kept trying to break into General Riley's office 
in that effort, we tried assistance, cleaning people in the 
office, nothing seemed to work. Finally, we realized the huge 
opportunity that we had missed before: General Riley's wife is 
from Louisiana. So we now--we definitely have the inside 
practice; she's been all over him about restoring our coast.
    General Riley was former district commander for the 
Mississippi Valley Division, which includes Louisiana. He has 
been a key player in the development of the LCA. Mr. Dan 
Hitchins from his division office is also with General Riley 
today.
    Also on the panel we're very honored to have Secretary 
Scott Angelle, Secretary of the Louisiana Department of Natural 
Resources. Secretary Angelle is the former parish president and 
has clearly placed coastal restoration at the top of his 
priority list for the department, working very closely, of 
course, with Governor Blanco on that commitment.
    We also have Senator Walter Boasso. Senator Boasso 
represents the southeast portion of the State, a good part of 
St. Bernard and Plaquemines Parishes. This is the area where 
the Mississippi River Gulf Outlet is located. Senator Boasso is 
extremely well-versed on this environmental disaster because he 
has lived in one of the center of gravity for that very 
worrisome activity. We're honored to have him today and 
President Charlotte Randolph, the President of Lafourche 
Parish. Charlotte is very involved in this issue as President 
of Lafourche Parish, but also as a real leader and a great 
organization named PACE, Parishes Against Coastal Erosion.
    That is a collection of parish leaders from throughout our 
coastal parishes that has really been very effective, fighting 
and battling that land loss and fighting for the policy we need 
to send to the top. President Randolph has a very unique 
prospective to provide to the committee, really from front 
lines of coastal erosion.
    So welcome to you all, and we'll begin with General Riley.
    General Riley. Thank you, Senator Vitter.
    As General--Senator Vitter said, I'm General Don Riley, 
Director of Civil Works for the Corps of Engineers, as well as 
the acting deputy chief of engineers at this time.
    Senator I want to thank you for this opportunity to 
testify. You and Senator Landrieu, thank you both for your 
leadership in the Senate and our Nation and certainly on this 
important effort as we restore coastal Louisiana.
    You have heard already and will hear more about this great 
effort, and certainly the urgency to restore America's 
wetlands. I am here from Washington to demonstrate that both 
the Corps' and the Administration's support for this work.
    We are sincerely committed to this effort with the State of 
Louisiana. Our strategy has been to reverse the trend as we 
develop this plan; reverse the trend and stop the losses of 
coastal wetland loss.
    Our initial plan that we have developed addresses the most 
critical, ecological needs over the first 10 years or so. We 
have three major components of that: First is targeted 
restoration of certain areas of the wetlands where we can 
achieve the most effective impact quickly; second, sustain the 
natural system as much as possible over a long period of time; 
and, third, to seek an integrated program across all Federal 
agencies, State agencies, communities and an integrated project 
life, as well, with all the project and the coastal restoration 
efforts ongoing.
    This effort has been a multi-Agency achievement, a really 
heroic effort with the Senate as the team between the Corps and 
the State of Louisiana.
    The chief of engineering signed his report with Senator 
Landrieu earlier this year. At first, in that report addresses 
the needs through several different features. It provides the 
most and the highest return on net environmental and economic 
benefits per dollar of cost.
    As you stated earlier, Senator Vitter, this is just the 
beginning. Also in the chief's report we recommend studies, 
potentially long-term, large-scale, long--very promising 
ecosystem restoration concepts that have a great deal of 
uncertainty in them, and that's why it's a longer term.
    Second, over the long term, we recommend and we clearly 
recognize we need to address key scientific uncertainties as 
well as engineering challenges through an S&T program, science 
and technology program, as well as a science and technology 
demonstration program.
    We do recognize the urgency of this challenge, and we also 
recognize because of that we cannot proceed with business as 
usual. So we do look forward to working with the State of 
Louisiana to develop more streamline approaches that are; one, 
both timely and effective; and, two, once authorized, we get 
the projects in the ground quickly.
    We are committed to a program that will enable the State 
and the Nation to protect American wetlands. Again, Senator 
Vitter, I'd like to thank you for this opportunity to testify 
and I look forward to answering any questions you might have.
    Senator Vitter. Thank you very much General.
    Secretary Angelle, welcome and thank you for being here.

 STATEMENT OF SECRETARY SCOTT ANGELLE, LOUISIANA DEPARTMENT OF 
                       NATURAL RESOURCES

    Secretary Angelle. Thank you, Senator. Good morning.
    Thank you, Senator, for hosting this very important meeting 
in New Orleans on such a critical issue for all of America. I 
am honored to testify today on behalf of Governor Blanco and 
the pending WRDA bill and a provision that is critical to 
Louisiana, the LCA.
    Let me take a moment to publicly thank you, Senator Vitter, 
Senator Landrieu, and members of the congressional Delegation 
for your great work during the consideration of the Energy 
bill.
    Because of the cooperation and leadership of the Governor, 
our congressional Delegation, our State Legislature and our 
parish leaders, we are one step closer to restoring America's 
Wetlands. Indeed, there is a new hope in Louisiana.
    As you well know, Senator, Louisiana's coast provides 
benefits to our Nation, unrivaled by any other coastal area in 
the United States, from oil and gas production to fisheries to 
flyaway habitat. These working wetlands serve as storm surge 
protection for the world's largest port system and for more 
than two million of our citizens.
    As they disappear at the rate of 24 square miles a year, 
the Nation's economic and energy security is put at risk. The 
loss has reached crisis proportions and Congress must address 
it as an emergency, both through funding and speed of action.
    While we value and appreciate the Everglades, our problem 
cannot be compared with restoration effort or any other 
restoration effort in all of the country. No place on the 
planet is experiencing land loss of this magnitude, and in no 
place are the economic and energy impacts to our Nation so 
severe.
    There are many causes of Louisiana's land loss, natural and 
man-made, not the least of which is the leveeing of the 
Mississippi River; done for the best of reasons but with the 
unintended consequences that we protect the wetlands from 
rebuilding and staying ahead of natural subsidence and sea-
level rise.
    This generation is not about the blame--blame-game, it's 
about pulling together to save this vital area and to sustain 
its values for future generations of Americans. Louisiana 
considers the Corps of Engineer to be a valuable partner.
    Because the special circumstances surrounding Louisiana's 
unique situation, I would like to point out a few elements of 
the proposed LCA plan we consider critical.
    First, justification for reduced cost share, rather than 
the traditional 35/65 WRDA match, not just because Louisiana is 
a poor State and will find it very difficult to match this 
level of funds for such a massive undertaking, but more 
importantly, as both you have said, and Senator Landrieu, 
because Federal actions associated with the land loss and the 
energy and economic benefits the Nation derives from this area, 
justify a reduced cost-share requirement.
    Second, the passage of the Energy bill was the first major 
step by Congress to recognize the needs of coastal oil and gas-
producing States.
    Again, we thank you and the entire delegation for your work 
in that area. We consider it to be a tremendous down payment; 
however, we refer to it, as you do, a down payment, not out of 
greed but out of need for a permanent funding source and we 
will continue to press Congress to pass legislation that would 
provide true sharing of OCS revenues with the coastal-producing 
States.
    Louisiana is serious about using such funds to restore our 
coast. Our State Legislature unanimously passed a bill that 
will allow our people to vote on a constitutional amendment 
next fall to dedicate to coastal restoration, the first $600 
million a year of any OCS revenues we receive. We feel 
confident, as other constitutional amendments have passed, this 
one will also pass overwhelmingly.
    President Bush recently said that Louisiana should use the 
revenues to match with other Federal funds. We believe this is 
great news. We suggest language in the WRDA bill to codify that 
notion and that future said such revenues could indeed be used 
as State matching funds.
    Third, part of Louisiana's Energy bill funds will be spent 
on jump-starting the scientific modeling and a construction of 
LCA projects. We feel such work to be accepted as in-kind 
credit by the Corps of Engineers.
    Fourth, I spoke of the urgency and the need for swift 
action. Ironically, what would prevent us from achieving our 
goal, more than a lack of funds, will be the lengthy Corps of 
Engineers process we are forced to endure. By the Corps' own 
admission, it takes an average of 11 years from authorization 
to completion of a project. That's an average. We have a river 
diversion project that took more than twice that to complete.
    Louisiana, as General Riley has said, does not have the 
luxury to have ``business as usual.'' The reality is that we 
will have very little land to save if the LCA is not treated as 
a special circumstance and changes are not made to shorten the 
Corps process. We ask you to please help the Corps so the Corps 
can help us.
    Finally, I would like to address the critical element of 
the proposed LCA plan, the science and technology program. 
State and Federal agencies, NGO's and our coastal stakeholders 
agree on the value of an independent, yet inclusive, science 
and technology program to insure that sound science and 
engineering continue to guide the restoration efforts.
    I have included for the record a short document that 
outlines the proposed science and technology program. It 
includes a science advisory board named by and given oversight 
by USGS, a science coordination board and other elements that 
ensure the coordination of Federal and State Agencies as well.
    [The referenced document follows.]

               The Science and Technology Program Outline
    The LCA Science and Technology program has been designed to ensure 
the best available science and technology is continually applied to 
implementation of the program's recommendations. To accomplish this 
mission, both review and research and development activities are 
required. The S&T Program has been constructed to maximize the three 
qualities of independence, accountability, and inclusiveness. This 
document provides a short description of the S&T Program structure, and 
then describes how these core characteristics have been incorporated.
                         s&t program structure

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The goal of the S&T Program is to provide the necessary science and 
technology to effectively address coastal ecosystem restoration needs. 
The S&T Program would provide analytical tools and recommend to Program 
Management Team appropriate studies to ensure that current issues of 
uncertainties can be reduced by sound scientific investigations.
    The S&T Office, under the leadership of the S&T Program Director, 
is the focal point for activities of the S&T Program. It provides a 
physical location and single point of contact for all agencies and 
individuals with interests in science and technology. It must 
communicate regularly and efficiently with the LCA Program Management 
and the Program Execution Team while maintaining a separate identity 
and independence from the day-to-day activities of implementation. 
While addressing the scientific needs of the LCA Program, the S&T 
Program would also strive to meet the technical needs of participating 
agencies within the context of their participation in the LCA Program. 
The S&T Office must also be responsive to the technical needs of the 
Program Execution Team and provide analytical tools responsive to the 
team (e.g., hydrodynamic and ecological models) and frequently assess 
the effectiveness of those tools through close communication.
    The Science Board is charged with three tasks: 1) understanding and 
improving the technical underpinnings of the LCA Program; 2) reviewing 
the structure and operations of the LCA S&T Program; and 3) reviewing 
and improving the processes for integrating the S&T Program activities 
with the LCA Program. The Science board, in its independent capacity, 
will ensure the application of world-class science to the LCA Program 
and provide national perspective and oversight of general scientific 
processes and structure in support of the Program Management Team and 
the S&T Program Director.
    The Science Coordination Team is charged with four tasks: 1) 
facilitate information transfer; 2) aid in planning periodic science 
symposia; 3) assess and advise on new and innovative science and 
technology; and 4) leverage resources to support LCA S&T plan 
activities. The S&T Program Director will serve as the Chairperson of 
the Science Coordination Team in order to facilitate focusing available 
resources on execution of the LCA S&T Plan.
    The S&T Program Director will establish ad hoc peer review 
committees for individual LCA project studies. The peer review process 
will include a review of the economic and environmental assumptions and 
projections, project evaluation data, economic analyses, environmental 
analyses, engineering analyses, formulation of alternative plans, 
methods for integrating risk and uncertainty, and models used in 
evaluation of individual projects.
                        maintaining independence
    The Science Board has been incorporated as the primary mechanism to 
ensure independence. This independent review body, composed of 
nationally and internationally recognized experts is empowered to 
review any aspect of either the S&T Program or the overall LCA Program 
and make recommendations to both the S&T Program Director and the 
Program Manager on how to improve scientific and technical methods and 
their incorporation into the program. The tasks of chartering, 
incorporating, staffing, and managing the operations of the Science 
Board have been delegated to the USGS; they have appointed their Gulf 
Coast and Lower Mississippi Valley Science Coordinator as the Executive 
Director of the Science Board. Although the USGS is responsible for 
operations of the Science Board, they are being funded for these 
activities by the USACE with LCA Program funds.
    In addition, the management structure of the LCA Program has been 
constructed to place the S&T Program Director and the S&T Program as 
co-equal with the New Orleans District of the USACE, the entity 
responsible for executing feasibility, design, and construction 
activities. Both the District Engineer and the S&T Program Director 
report to the Mississippi Valley Division Commander who is acting as 
the program manager. This structure minimizes the perceived potential 
that the technical teams responsible for developing projects can exert 
improper influence over the scientific and technical activities being 
undertaken to reduce uncertainty in the overall program. The S&T 
Program Director has been given his own budget and the authority to 
manage that budget. In addition, the S&T Program Director reports to a 
member of the Program Management Team, which has been incorporated to 
support the MVD Commander in making program decisions.
                       maintaining accountability
    Since review functions are not the only functions assigned to the 
S&T Program, accountability and responsiveness to program needs are 
necessary. The S&T Program in general is responsible for reducing 
uncertainties in LCA Program implementation, and so must orient its 
activities toward those ends. This accountability and responsiveness is 
ensured by placing the S&T Program Director within the USACE chain of 
command, specifically hired by the Mississippi Valley Division and 
reporting directly to the Division Commander. This reporting structure 
gives the Program Manager the ability to exercise due diligence in 
ensuring that the expenditure of S&T Program funds is for their 
authorized purpose. The USACE maintains the responsibility to implement 
the S&T Program in a manner that supports overall LCA Program needs, 
and has the authority to change the S&T Program operations if the 
Program Manager and the Science Board have identified issues that need 
to be corrected.
                       maintaining inclusiveness
    Many entities have been involved in the discussions concerning the 
structure of the S&T Program, including the USACE, ERDC, State of 
Louisiana, academic and private sector scientists, and the USGS. The 
S&T Program has been constructed to address lessons learned from other 
large-scale ecosystem restoration programs, and provides avenues for 
all interested agencies, academic institutions, non-governmental 
organizations, and the private sector to participate. The structure 
specifically includes a Science Coordination Team, which is designed to 
provide an interface between the LCA S&T Program and other research and 
development programs, allowing other entities to participate in the 
implementation of the S&T Plan. In addition, all activities will be 
documented and all reports will be made public for any interested 
parties to review and comment on.

    In closing, I stress to the committee that Louisiana is a 
land in crisis. There is no time for business as usual. We are 
experiencing a true emergency. Because of the national benefits 
provided by what is truly America's wetlands and the impacts of 
the Nation as a result of this crisis, Congress should 
recognize it as a special circumstance and address efforts to 
save it accordingly.
    After all, all we are trying to do is save a portion of the 
very same land that President Jefferson purchased some 200 
years ago on behalf of all Americans in the historic Louisiana 
Purchase.
    Thank you, Senator, for holding this field hearing in New 
Orleans, allowing the State to share its views on the 
legislation we consider critical to our State survival and the 
future of our Nation.
    Senator Vitter. Thank you very much, Mr. Secretary.
    Senator Boasso, thank you for your leadership, particularly 
with regard to the Mississippi River Gulf Outlet, MR-GO. We'd 
love to hear your testimony.

 STATEMENT OF HON. WALTER J. BOASSO, SENATOR, LOUISIANA STATE 
  LEGISLATURE, SENATE DISTRICT 1, ST. BERNARD AND PLAQUEMINES 
                            PARISHES

    Senator Boasso. Thank you, Senator. I just want to add for 
the record that I also represent Orleans Parish and St. 
Tammany, so I have the whole east-coast Louisiana. The 
Southeast corner of our State is very highly vulnerable to 
advanced land loss from ravages from coastal erosion. Today I'm 
going to just narrow my comments to the MR-GO.
    Senator someone has to make a decision. The new locks at 
the Industrial Canal is an excuse that no longer can be used as 
an alternative to wait to close the MR-GO. With the deficits 
today in our Federal Government, I personally believe we will 
never see the $1 billion to replace the locks in my lifetime.
    In the meantime, there is uncertainty in the maritime 
industry on whether they should or should not continue to do 
business with the Port of New Orleans. This is unjust, both to 
the maritime community and to economic development.
    Second, the people of St. Bernard are sitting by while the 
Federal Government plays Russian roulette with our lives and 
our community. You have seen the destruction firsthand; you've 
heard the cry of the people of St. Bernard. You have heard the 
maritime decision, maritime industry. Someone has to make a 
decision.
    When I was Chairman of the Port of New Orleans, we built 
Napoleon Avenue container wharf. This had the effect of moving 
a majority of the vessel traffic on the MR-GO to the river, 
thus making the MR-GO's continued use virtually obsolete.
    The MR-GO is a symbol of how poorly we have treated our 
wetland environment in favor of commerce. It has never 
developed to its original purpose and, once again, we are left 
with a situation no one wants to make a decision about.
    I think in fairness to everyone, someone has to come up 
with a conclusion. You have three options: One is continue with 
the proposed plan of $108 million of rocks, which we all know 
will disappear in time and accomplish nothing for the 
Metropolitan area regarding saltwater intrusion, hurricane 
protection and the mixed messages on the resolution of the MR-
GO's future.
    I want to reiterate, this is a very important project 
because something will have to be done on at least the northern 
shore of the MR-GO. That does not solve the immediate problem 
of saltwater intrusion.
    The second thing is to properly fund the relocation of 
these businesses and close the MR-GO. It could be as simple as 
sinking two environmentally cleaned scrap Marad vessels in the 
channel's west end of Breton Sound, which we refer to as The 
Rocks, cover them with dredge material, in essence, creating a 
dam, then raise our levees to the Army Corps of Engineers' 
required height and shore-up the break on the Northern banks of 
the MR-GO.
    Or Plan 3, stop dredging from The Rocks to France Road. 
Understand the impacts of vessel traffic on the MR-GO shoreline 
and react accordingly. Install a gate system on the east side 
of Bayou La Loutre to be opened and closed for vessel traffic. 
Install a shallow draft gate for the recreational and 
commercial fishing industry.
    Install locks at Bayou La Loutre, Shell Beach, Violet and 
Bayou Bienvenue on the MR-GO's Northern shore just to be closed 
and protect against rising water during hurricanes or strong 
east winds. Make one more pass with a dredge from Paris Road 
bridge to The Rocks, depositing material on the Northshore of 
the MR-GO, creating a small levee and closing off all other 
openings.
    Limit and enforce large vessel speed limits. Properly 
install safety barriers around exposed piers of the Paris Road 
bridge which was once protected by land and serves as our 
evacuation route. Continue to maintain at 36 feet from the 
rocks to the opening of the MR-GO.
    So, in essence, what I'm saying is that the vessels, all 
except one company, use the MR-GO can live with 28-foot draft 
and under. It is shown that it's estimated that it will take 30 
to 50 years for the MR-GO to silt into 28 feet.
    A long-term draft of 28 feet satisfies every requirement of 
all businesses including--using the MR-GO but one. Lone Star 
Cement could be accommodated by ship-to-barge transfers at a 
cost of less than $3 million per year. We can stop or limit 
major saltwater intrusion. We can protect not only St. Bernard 
but New Orleans, Jefferson and St. Tammany Parishes from rising 
waters and storm surge.
    Last, we satisfy almost all of the needs of the current 
maritime industry.
    So Senators, I'm asking, we have to make a decision. There 
is no sense in sending the mixed signals to the maritime 
community and the people who have to live and deal with the 
saltwater intrusion with the MR-GO.
    Thank you.
    Senator Vitter. Thank you very much, Senator, for all your 
leadership.
    Now we'll hear from President Charlotte Randolph. 
President, welcome. Thank you for your leadership, particularly 
to the PACE organization.

   STATEMENT OF MS. CHARLOTTE RANDOLPH, PRESIDENT, LAFOURCHE 
                             PARISH

    President Randolph. Thank you, Senator Vitter, and good 
morning to you as well. Thank you for hosting this. Senator 
Landrieu, as well, thank you for your leadership.
    I'd like to deviate from my written statement this morning 
for a couple of reasons. First of all, there is a storm in the 
Gulf, which puts parishes such as ours on the alert very early 
this morning. All indications are from the Weather Service that 
it will take a different direction, perhaps head to the Florida 
coast. We do not wish that on anyone else, but, certainly it's 
an opportunity again for us to test our system and make certain 
that we are ready for these events.
    Second, the decision this morning between you and Senator 
Landrieu is about cost share. I want people to know that 
Lafourche Parish has already absorbed much of the cost of this 
problem.
    The people of South Lafourche Parish first taxed themselves 
to establish a port south in the southern-most part of our 
parish. By doing so, we became a strategic point in the oil and 
gas industry. The initial money that came into Lafourche Parish 
came from our own people.
    Second, with South Lafourche Levee District, because we 
recognized the need to begin a levee system in 1965, we again 
taxed ourselves to begin this process. We have used that money 
to match State and Federal moneys, and we're grateful for that 
participation, but each time we've taken it upon ourselves to 
make certain that the money--create the programs and projects 
needed to protect ourselves.
    That's very, very important because the cost of this is the 
cost of doing business in Lafourche Parish. Drainage projects 
are funded by our top taxpayers and so are these major 
projects. We've begun to recognize that a modest cost of this 
is being borne by our own residents in this area.
    So the share must come from the other portion of this, the 
money we contribute to the Federal Government. That $5 billion 
a year is something that we deserve a major portion of every 
year, and I hope that's taken into account by the Senate, by 
the House and by the President himself, because we have made 
much contributions in that level.
    We, too, have tasted salt water in our Parish, Senator 
Boasso. At one point in 2000, a drought led to saltwater 
creeping all the way up to our water intake, which is 45 miles 
north of the Gulf of Mexico.
    Senator Landrieu stepped in at that point and helped us set 
up a fund where we would install a structure to stop the 
intrusion at that point. We're now considering another 
structure because it's entering through many different areas.
    That water supply supplies the drinking water for 300,000 
people. At that point, a major industry shut down for about a 
week--a major industry, which employed about a hundred people. 
People with high blood pressure were warned not to drink our 
drinking water. This was 5 years ago. So any similar situation 
now would certainly lead to much dire circumstances as we stand 
now.
    We are in a desperate situation in Lafourche Parish. We are 
a significant parish because we contribute much to this 
Nation's energy needs; and, therefore, we're asking that much 
of it would be returned to us.
    The saltwater situation and pending storms all lead us to 
live each day kind of looking over our shoulder and wondering 
what we are threatened with next.
    Port Fourchon was developed by the people of Lafourche 
Parish who contribute that--much to that $5 million that goes 
into the coffers annually.
    Senator Vitter, you've introduced a series of five coastal 
bills which address near-term and long-term solutions to our 
problem. For a very long time members of our congressional 
delegation has been petitioning our Government for assistance.
    True success will be achieved when the nation's leaders 
finally recognize the value of coastal Louisiana and fully fund 
the projects necessary to protect us.
    We are indeed grateful for the recent allocation provided 
in the recently enacted Energy bill and the Transportation 
bill, which will allow us to build a much-needed highway to 
Port Fourchon to continue serving the Nation with it's energy 
needs.
    These funds provide for opportunities to reinforce our 
existing levee system as well as to construct that major 
highway to the very significant Port Fourchon. It's a good 
start, and we thank you for your funds.
    I'd like to repeat a phrase that Secretary Angelle said: 
This is not out of greed that we ask for more money, it is out 
of need. I think that is an essential message that we need to 
send to the Federal Government.
    A guaranteed source of revenue will allow us to plan for 
our future, which at this point is very, very shaky. What is 
our future? Do we plan for retreat or do we continue to fight? 
We continue to fight.
    Thank you, Senator Vitter.
    Senator Vitter. Thank you, Madam President. Thank you very 
much.
    Now, we'll get the questions.
    First, General Riley, just as--for many years we've been 
talking about an LCA program that comes to about $15 billion 
total. Now, the Chief's report refers to a $2 billion program, 
Phase I.
    So, if you can, please reassure us that you have the other 
$13 billion in mind; it hasn't disappeared, and that this is 
the start and not the end.
    General Riley. Sure, Senator. In the administration, when 
we developed that near-term plan, we thought that was the most 
prudent to get into action and done quickly; as Senator 
Landrieu said, bold and decisive action.
    We knew that waiting and developing a long-term 
comprehensive one might take more time, so we thought: Let's 
get some good done now.
    We also know there's tremendous uncertainty about the 
future, that's why we need the science and technology program 
and demonstration program. We just don't know how the system 
will act to the actions that we place into it.
    So I don't want you to take the urgency of the situation in 
the near-term focus as a signal of a lack of commitment. 
Clearly the Administration's commitment--I mean, I've come out 
here to demonstrate that. Clearly, the President has already 
spoken about this project and the long-term commitment of it. 
So this focus that we have initially on the--on the near-term 
plan is not the only piece; there is more to it and we have 
recognized that.
    We also know that the State still remains very interested 
in developing a more comprehensive blueprint for the future and 
we will work very, very closely with them.
    Senator Vitter. Thank you, General.
    General the--the statement of administration policy 
released by OMB, not the Corps, but office of management and 
budget for the House WRDA bill recognized coastal Louisiana as 
a ``National Priority'', however, the same statement of policy 
suggested that Congress should consider a 50/50 Federal/State 
cost share versus the traditional 65/35 or something above 
that.
    Now, obviously, that would save the Federal Government 
money, so there's that argument from the Federal level. I 
understand that, although I don't accept it.
    Is there any other legal or equitable argument to support a 
50/50 cost share when traditionally it's 65/35? Many arguments 
can be made that it should be more generous than that.
    General Riley. Well, sir, clearly, in our Chief's report we 
have recommended--the only thing we could recommend, and that's 
in accordance with law and policy for construction, that being 
65/35. In the Chief's report, we also recognize and laid it out 
in the table pretty clearly what the State's desires were in 
the case of construction it was 75/25.
    In addition to that, I'm also aware that the administration 
has commented on the House WRDA bill and that in their 
discussions that they recommended the 50/50 cost share.
    So really, until the Administration works out all that, the 
only thing the Corps can do is recommend cost sharing in 
accordance with the present law and policy.
    So there are--I guess there are many other different 
alternatives that are being weighed at this time, but until 
that's resolved we'll stay with the present law and policy.
    Senator Vitter. OK, General. General, last year on the 
House side you testified at a hearing on the LCA. Although the 
event was cut short due to business on the House floor, just 
before that hearing adjournment I was surprised and intrigued 
to hear you state that you didn't believe our coastal erosion 
was attributable to the levees installed in the lower 
Mississippi.
    You've heard that alluded to here. I certainly believe that 
is a key piece of the puzzle; not the only piece, but a key 
piece of the puzzle since Louisiana's delta is built by the 
river, consisting of several thousand square miles of land that 
was growing prior to the insulation of levees and eroding after 
the installation of levees.
    Can you comment on that?
    General Riley. Sure, Senator. Thank you.
    The question was whether or not I thought the work the 
Corps did on the levee was the primary cause of coastal loss 
and coastal erosion. My comment was that there--before we had 
to go to vote began to discuss the multitude of different 
actions that have taken place along on the coast that 
contribute to that.
    Clearly, levees are a very significant factor because with 
those levees there they do not allow the national regeneration 
of and sediment introduction into the system.
    As you know, back in the early 1700's they began building 
levees here. Even before the Corps initiated the Flood Control 
Act in 1928, there was already a continuous system of levees 
from here--from the Gulf to Arkansas and that there's also 
subsidence that has to do with--and--[in audible] got me here 
this morning he can tell you about the faults that are there, 
the oil and gas exploration, the oil and gas navigation 
channels, pipeline channels, the fishing navigation channels. 
Even the State has gone out and moved Barrier Islands for--
road--road work. There's the saltwater intrusion the storm--as 
the President's mentioned that's incoming. All those are very 
large contributing factors.
    The real important point, I guess, is that 
interrelationship of activities that really has an infinite 
combination of causes and actions and reactions.
    To answer your question, specifically, clearly the levees 
are a major contributing factor due to the loss.
    Senator Vitter. Thank you, General.
    General there have been some recent questions about the 
ability of the State of Louisiana to use these Energy bill 
funds, which we just secured to match Federal funds from the 
Corps of Engineers for coastal restoration work.
    The solicitor's office of the Department of Interior, has 
informed us that they believe the State may use these funds as 
a match for these other Federal funds, and the President 
actually encouraged Louisiana to do this in his statement.
    Is this consistent with Corps policy and from your point of 
view can the State use Energy bill funds to help meet their 
match?
    General Riley. As I understand that, that program is 
administered by DOI; so if the DOI makes that judgment, I think 
the Corps will clearly comport with that and allow that to 
happen. Certainly if the President has encouraged that. I'm 
sure that Secretary Woodley would--would then go along with the 
DOI calling.
    Senator Vitter. Great. Thank you, General.
    Secretary Angelle, you referred extensively in your 
testimony to the cost share that is being debated right now for 
this program. Can you expand for just a minute on why you think 
Louisiana should be treated differently and why the LCA again 
is different from, say, the Florida Everglades and Chesapeake 
Bay?
    Secretary Angelle. Thank you, Senator. Certainly when you 
take a look at what everyone has said, the contributions that 
Louisiana has made to America, when you take a look at 34 
percent of the oil and 30 percent of the natural gas either 
produced or flows through our wetlands, and you take a look at 
some of the Federal decisions, although, you know, made for the 
right reasons, had unintended consequences.
    The contributions that Louisiana has made to America and 
how important this area is, not only to the economic 
securities, but the energy security of this country.
    I think if you take a look at cost share, if we looked at 
how important this is, a 65/35 would not even be considered. A 
75/25 is certainly in the right direction, but we might get 
into a new--a new number, perhaps even greater than that when 
you take a look at the value of the contribution the wetlands 
has made.
    Senator Vitter. Thank you very much.
    Secretary I'm really concerned that some people nationally 
have alleged that Louisiana is basically waiting for a sort of 
handout for the Federal Government to come in and fix this.
    Can you describe everything that the State and citizens in 
the State are doing in terms of laws, programs, actions, 
financial, and other commitment to doing our share?
    Secretary Angelle. You know, coastal restoration was cool 
in Plaquemines and St. Bernard and Lafourche and Terrebonne 
before anybody knew about it. It really started with the 
leaders from those areas bringing this to attention. The State, 
over four different Governors, regardless of party, made it a 
significant part of their platform and their leadership has 
been directed toward this. We've passed constitutional 
amendments.
    Since 1989, the State has put $355 million of its own 
resources. We are doing what we are asking the Federal 
Government to do. We take a portion of our mineral income from 
our offshore production and we dedicate it to fighting the 
coastal problems by a constitutional amendment that was passed.
    We have another constitutional amendment that is going to 
be scheduled here in November of 2006.
    The record is very clear that Louisiana takes this very 
serious. When you take a look at the margin of victory of 
constitutional amendments in Caddo, and Rapides, Ouachita 
Parish, those amendments are passing almost with the same level 
of support that they are passing at the epicenter of land loss 
in Lafourche and Terrebonne.
    Louisiana has done a tremendous job carrying this ball to a 
point and putting ourselves in a position. When--One of the 
things that really strikes me is there's one constitutional 
amendment that takes away some property rights, and this is a 
very strong property right State.
    We are lining up and we are doing the things that we 
believe shows our commitment to this, again, beyond politics 
and beyond anything else that one could imagine would put a 
limitation on this.
    Senator Vitter. Thank you very much, Secretary.
    Senator Boasso, thank you for all of your comments and work 
on MR-GO. If you can tell us briefly what real-world on-the-
ground impact Mississippi River Gulf Outlet has on storm surge 
and how that impacts all of Southeast Louisiana.
    Senator Boasso. Senator, what we're doing at this time, 
Secretary Angelle was very helpful in commissioning these two 
studies. The Army Corps of Engineers provided a study that said 
whether the MR-GO was open or closed that there would only be a 
6-inch rise in storm surge on top of--or a 6-inch difference.
    There's some people who had disagreement about that and so 
what we have done, we've got the Governor's office and 
Secretary Angelle, the Army Corps of Engineers and some 
citizens and we got together and there is a re-look of all the 
studies that have been done to confirm whether or not if you 
damned off the MR-GO is it only a 6-inch difference. So that 
study will be finished by the end of this month.
    Also, there's another study that Secretary Angelle 
commissioned, is that we'd want to understand the hydraulic 
effects on the banks of the MR-GO, whether you have a vessel 
that's at 28-foot draft going 10 knots versus a vessel going 8 
knots with a 32-foot draft to understand the drag and effect on 
the banks itself to try to determine what we can do in that 
case.
    So right now we have those two studies that have been going 
on now for some 7 months, and they should be brought to 
conclusion within the next 30 days. So I think that will give 
us a great affect on exactly where we stand. Everybody's agreed 
that whatever these studies say, we're all going to agree that 
this is gospel.
    Senator Vitter. Thank you, Senator. You touched on the 
current inadequate, and I agree with that, LCA recommendation 
about MR-GO--$170 million on rocks on riff-raft, again, I agree 
with you. Because of that, I got inserted in the Senate WRDA 
bill, language to direct the Secretary to provide Congress with 
a plan to fully protect and restore MR-GO area within a year 
and to implement those recommendations without the need for any 
further action by Congress.
    Do you support that, and what else should we be considering 
inserting into WRDA and MR-GO?
    Senator Boasso. Well, I think you'd take a lot of pressure 
off of everyone if it was going to stay open or if it was going 
to close.
    You're going to have to do that type of bank stabilization 
if you're going to keep it open to maritime traffic. If you're 
going to close it, we've got a whole other plan that you have 
to go in that direction with.
    As far as $100 million--billion on rocks, you're going to 
need something there, Senator. If you really want to start, 
let's go ahead and stop the storm surge coming in, whether it's 
6 inches above the normal surge or not, is that we've got to 
stop--You ought to see the tidal movement when we have an east 
wind--is that we need something to stop this water from coming 
in, because, once again, that water doesn't stop in St. Bernard 
Parish, it, therefore, goes right into the lake.
    You've got more salt water being introduced into the lake, 
and this is where you have your potential problems for the 
whole Metropolitan area, not just St. Bernard in itself. So I 
think--and there is technology in Europe on gate systems like 
this. It's very commonly used along the Rhine Rivers.
    It's there, but if it's something that we're going to have 
to study for another 10 years we're really just wasting our 
time because it's just a part of a rush on the levee. Once 
again, I'm going to reiterate because someone's got to say 
``yes'' or ``no'' because it's not fair to the people who live 
in the area and it's not fair to the maritime industry.
    If you own a business and you're going to invest money on 
the MR-GO, you don't know if you're going to be in business 5 
years or 3 years or 10 years and you constantly have that drag 
on whether or not, so why come here? You might as well go to 
some other State where you know you've got some kind of 
longevity.
    Senator Vitter. Frank, well, I certainly agree with you. 
Then in your testimony, you alluded, I believe, to commercial 
traffic of lessor depth. From what you know now, do you think 
that is consistent with some sound policy for MR-GO in the 
future, or whether we really need to phaseout all commercial 
traffic?
    Senator Boasso. Well, if you deauthorize to 30--if you 
deauthorize the channel or even go up to a 28 feet. If you left 
it at 36 feet, the only thing you really have to worry about is 
from The rocks out to the mouth of the MR-GO, because those are 
usually your problems when you have some kind of a storm.
    So if you go from The Rocks all the way to France Road, 
they estimate it will take somewhere between 30 and 50 years 
before it starts to sit at 28 feet.
    Now, you still have to do some bank enhancements, so that 
might even prolong it's life even further. So, should we close 
it to commercial traffic? There's a lot of theory on whether 
that should be done. Could you have a duplicate MR-GO? No, you 
can't do it in today's times. But there's a solution that helps 
the maritime industry: Can you help us relocate all those 
businesses to the Mississippi River? We've moved most of them 
but you still have some there that you won't be able to move.
    I think you can find a balance there. All of those 
businesses, except one, can live with 28 feet draft. So this 
way, if you can put some gates there, we took care of some bank 
stabilization, we're good for 30 or 50 years. So basically 
everybody wins in the end with that.
    Senator Vitter. Thank you, Senator.
    President Randolph, you know, we're talking about large 
commitments of Federal money, but right now there are regular, 
periodic, large confusions of Federal money through FEMA 
whenever we have a storm.
    Can you talk about the sort of money FEMA spent in 
Lafourche because of this working situation after storms?
    President Randolph. Well, with your assistance and Senator 
Landrieu's assistance, we were recently--received disaster 
declaration from the President. Just yesterday we were informed 
that we not only were going to receive some assistance from 
FEMA--and Tropical Storm Cindy was something that even the 
meteorologist were dismissing as a minor storm.
    We spent over $300,000 in the aftermath cleaning up after 
that storm from the damage that it caused, and that was a very, 
very minor storm. FEMA has spent a considerable amount of money 
in our area.
    In fact, right now we are working with them to do some 
remapping, which is necessary. It's also an indication that our 
levees are too low, which is a concern, and they're going to 
assist us in identifying which levees need to be raised to a 
higher level so that we will be protected against storm surge. 
They're going to infuse about half a million dollars--they are 
infusing that amount of money right now.
    So FEMA is certainly contributing greatly to our parish but 
as with anything, you wonder how much is enough and are we 
doing enough.
    If I may deviate for one moment, I'd like to recognize 
someone who is here. You mentioned PACE earlier, and Parish 
President Benny Rousselle is here from Plaquemines Parish, and 
he is President of PACE. So certainly he is our leader right 
now in this fight.
    Senator Vitter. Certainly. Thank you very much.
    Madam President, just to follow up with the FEMA issues. Is 
it fair to say that if we start doing what we need to do about 
coastal erosion in Lafourche, the money FEMA would otherwise 
spend will go down?
    President Randolph. Oh, considerably. It's the situation 
where you pay us on the back end or pay us on the front end. 
I've always asked people if we should be preparing for the 
rainy day or saving for the rainy day. I think what we need to 
be doing is preparing.
    If we spend the money through the assistance from OCS 
revenues, from the Energy bill and WRDA, then we are preparing 
for the rainy day and FEMA can respond to the other disasters 
in this country; the tornados and earthquakes that we can't do 
anything about.
    I mean, we can run from hurricanes and certainly repair the 
damage, but if we can protect ourselves from that by reshaping 
those Barrier Islands or reshaping our protective system, then 
the loss will be a lessened and the critical damage which 
occurs after these storms will also be lessened.
    Senator Vitter. Great. As you know, a significant share of 
this money we just secured in the Energy bill, 35 percent of 
everything that comes to Louisiana will go directly to coastal 
parishes. I thought that was very important, and I certainly 
fought to protect that and the 35 percent.
    Can you talk about the importance of that, funding that 
work at the parish level and how it should be integrated with 
the broader effort?
    President Randolph. This is not a per-parish fight. This is 
a regional fight, a State fight. We've already begun 
discussions among the parishes the projects where we can work 
regionally; whereas, otherwise, if we look at parochial 
projects, it won't always assist each other.
    The examples of that is, if we start the dredge project on 
the western side of Lafourche Parish and shore up the South 
Lafourche Levee District. We're also assisting Terrebonne 
Parish in their fight because we're creating a protective 
barrier for them in the event of a storm approaching us.
    The same thing on the eastern side of Lafourche Parish. If 
we address projects such as--[in audible] project, we're not 
only protecting Port Fourchon, we're protecting lower Jefferson 
Parish, and in some ways Plaquemines Parish, depending on the 
direction of the storm.
    Each project reviewed is assisting another parish, and 
therefore, through PACE, we're looking at combining much of 
this money to create the much larger projects which will help 
other parishes, with that statement, money which can come in 
and be a part of those projects.
    Orleans Parish at one time did not recognize coastal 
erosion as a problem, just the upper parts of Jefferson Parish. 
They are integral now to PACE because they recognize that we 
sit in an area which protects them, and putting money into 
Lafourche Parish projects will help in protecting Orleans 
Parish and other upper area parishes.
    It is now being recognized by the 19 coastal parishes that 
we can help each other, and so now this money needs to be spent 
in a regional way, with the assistance of the State and with 
further money coming from the Federal Government as well.
    Senator Vitter. Great. Thank you very much. Thanks to all 
for your testimony. I'm really happy you could be here.
    I'd now like to invite our third and final panel to take 
the stage, and I'll be introducing them in just a minute for 
the same business. If they will come up and take their seats.
    We want to welcome our third and final panel for this 
Senate Hearing. I'm honored that all of you can be here to 
testify, and I'll introduce everyone and we'll get right to 
your testimony.
    First, we have Mr. Jerome Zeringue, Executive Director of 
the Terrebonne Levee and Conservation District; also Mr. Randy 
Lanctot, Executive Director of the Louisiana Wildlife 
Federation; Ms. Alexis Duval, Chairwoman of the Board of the 
Houma-Terrebonne Chamber of Commerce; Mr. Roy Francis, 
Executive Director of the LA1 Coalition. Unfortunately, he's 
leaving that position very soon but at least it's on a very 
high note. And Dr. Shea Penland, Director and Professor of the 
Pontchartrain Institute of Environmental Sciences, UNO 
chairman, Department of Geology and Geophysics here at UNO.
    Welcome, and thanks to you-all. We'll begin with Mr. 
Zeringue.

     STATEMENT OF MR. JEROME ZERINGUE, EXECUTIVE DIRECTOR, 
           TERREBONNE LEVEE AND CONSERVATION DISTRICT

    Mr. Zeringue. Thank you, Senator. Thank you for the 
opportunity to speak today. I want to welcome you and everyone 
to South Louisiana where a sinking feeling is not just an 
emotion, but an unpleasant fact.
    In Terrebonne Parish, we are losing our land, our 
resources, and our communities due to coastal land loss 
resulting primarily from subsidence, sea level rise, and salt 
water intrusion.
    Terrebonne Parish is the largest coastal community, most 
exposed and vulnerable to the effects of high tides, high 
winds, tropical storms, and hurricanes. In any given year, we 
face a 60 to 65 percent chance of a named storm making landfall 
and impacting our State, and a 25 percent to 30 percent chance 
of a hurricane making landfall or affecting Louisiana.
    Terrebonne Parish has some of the most ecologically 
significant and productive habitat in the world. We have 2 of 
the top 10 seafood docks in the United States in terms of 
dollar value and poundage harvested. We have oil and gas 
infrastructure that is vital to the State and the Federal 
economy.
    We have an increasing population and tax base with a 
healthy productive economy and, frankly, we have people, 
infrastructure, and wetlands that need and deserve protection.
    I have worked for Louisiana State University as a fisheries 
biologist. I have worked for a non-profit environmental 
organization, the Nature Conservancy, and now with the levee 
district, a career path that on the surface may appear somewhat 
convoluted and disconnected, but in reality, considering the 
problems we face, a fortunate series of events.
    It has afforded me an opportunity to view the issues 
affecting our State from an academic, business, and 
environmental perspective; all of which must work together to 
turn back current trends and very dire predictions.
    Academically, we should deal with coastal land loss with 
practical research, capable of complementing and enhancing 
desperately needed projects. The academic community must work 
cooperatively to implement projects and share information with 
a focus on constructive research, not conducting studies simply 
for their intrinsic scientific value.
    Projects must be put on the ground to stem the ravaging 
effects that subsidence, sea-level rise and saltwater intrusion 
impart continuously, even now as we discuss, debate, and study 
these issues.
    Fixing our problems will require the environmental 
community to accept seemingly unnatural, contrived and untested 
projects in order to establish a functioning system that will 
enable systemic long-term solutions to the problems we face; 
keeping in mind that we are in this predicament because of 
unnatural, insensitive, and unintentional events, which should 
not be repeated, but may be necessary to achieve the preferred 
result.
    From an economic perspective, industries that have 
traditionally relied on convenience or unfettered access must 
understand that implementing necessary fixes will require 
sacrifices. It will necessitate changes in ways we 
traditionally conducted business, and rely on innovation and 
least-damaging alternatives in oil and gas extraction and 
exploration, and adapting to changing fisheries resources that 
will result from habitat modifications.
    Unfortunately, our future will require a line in the sand 
drawn from a certain point. A point where we will stand and 
fight, retreat no more and do what we must to sustain 
ourselves. Just like the city of New Orleans, our coastal 
communities will require some form of protection through 
levees, walls, or embankments in order to survive.
    The line will be drawn, either by persistent degrading 
forces or through consensus. Coastal communities are retreating 
and we have lost several, and several more will not be around 
20 to 40 years from now.
    In Terrebonne Parish, we face a land loss rate of 10 square 
miles per year. We have one of the highest land loss rates in 
the Nation. Our line in the sand is the Morganza-to-the-Gulf 
Hurricane Protection project. The Morganza Project will provide 
hurricane protection for Terrebonne and Lafourche Parishes, 
their 200,000 residents and infrastructure. The Morganza-to-
the-Gulf Project is a leaky system, which sounds odd if you 
consider this strictly as a flood protection system; however, 
leaky is the ideal way to build such a system in this 
environment.
    The obvious concern with building a project of this 
magnitude in coastal Louisiana is the potential impacts to 
wetlands, wetlands we intend to protect and restore. The 
Morganza Project is sensitive to these environmental concerns. 
We are designing this project in the most environmentally 
friendly way practicable.
    We will achieve this by constructing our levees, floodgates 
and environmental structures along existing hydrologic 
barriers, such as drainage levees, and adjacent roads 
minimizing impacts to wetlands and enhancing the existing 
hydrologic regime.
    In addition, the Morganza Project will provide flood 
protection capable of adaptively managing the wetlands within 
and around the system. The lynch pin of the whole project is 
the lock on the Houma Navigational Canal. The HNC Lock is the 
key feature necessary to protect, maintain, and restore 
wetlands within the Terrebonne Basin. This lock is considered a 
critical restoration component within the Coastal 2050 Plan, 
Louisiana Coastal Area Study, and by the Morganza Habitat 
Evaluation Team.
    These studies agree that the Houma Navigational Canal lock 
can effectively assist restoration efforts of adjacent wetlands 
in a systemic, comprehensive approach. The Houma Navigational 
Canal Lock is a case study of how a flood protection project 
feature can serve as an adaptive management tool.
    Initially, the Houma Navigational Canal lock was considered 
only as a Morganza Project component, designed to protect 
thousands of residents and businesses from a 100-year storm 
event, provide safe harbor for navigation, protect the local 
drinking water supply, and reduce saltwater intrusion.
    The lock has evolved into a significant environmental 
structure which can substantially reduce the devastating 
impacts of saltwater intrusion, maximize and efficiently 
utilize available freshwater from the Atchafalaya River to 
enhance, restore, and reestablish fresh and brackish water 
marsh within this coastal environment and oh, by the way, can 
protect the citizens from a Category 3 storm event.
    The HNC lock will work collaboratively with the 12 other 
environmental control structures along the Morganza alignment 
to protect and maintain wetlands within the Terrebonne Basin.
    We are anxiously waiting WRDA authorization for remaining 
portions of this project that must be authorized. The citizens 
of Terrebonne cannot continue to wait, nor are they relying 
solely on Federal and State financing. In fact, we are the 
first South Louisiana community to pass a local tax to support 
coastal restoration.
    Our citizens have assessed themselves a quart cents sales 
tax generating over $4 million per year that can only be spent 
on the Morganza-to-the-Gulf Project. Some may say that this is 
not coastal restoration but flood protection, but I can assure 
you that from where I come from we do not differentiate between 
the two. To us this project is coastal restoration.
    The Morganza-to-the-Gulf Project can serve as a model for 
designing a system that can protect people, infrastructure, and 
the environment. The Morganza Habitat Evaluation Team, composed 
primarily of State and Federal regulatory agencies, will 
adaptively manage this project by manipulating floodgates and 
environmental structures throughout the project life. This 
dynamic ecosystem can never be managed to a one-size-fits-all 
solution.
    We have a sufficient amount of information to begin putting 
restoration projects on the ground; the question is: Do we have 
the political will to get it done? To put into operation these 
large-scale projects included within the LCA study, it will 
require a trial-and-error approach, and we must understand that 
there will be failures. These efforts are necessary to achieve 
success.
    Unfortunately, someone's constituency or user group will be 
affected, which could impact one's standing, government 
funding, a fear of legal prosecution. We must all have the 
courage and compassion to ensure that our efforts are 
successful. We are all too confident in the consequences of 
doing nothing; we cannot let the fear of uncertainty encourage 
inaction.
    I appreciate the efforts of Senator Vitter, Senator 
Landrieu and our congressional delegation for funding included 
within the Energy bill, and I respectfully request your support 
and passage of WRDA which will enable us to protect our coast 
and our citizens. Help us to hang on to a unique national 
treasure, an area rich in diversity, culture and resources.
    It was Benjamin Franklin who said, ``When a well's dry, we 
know the worth of water.'' Let us not have to lose this 
valuable resource before the Nation truly appreciates its 
worth.
    And I thank you.
    Senator Vitter. Thank you very much. Although I introduced 
the panel in a slightly different order, why don't we go in the 
order that you're seated; so we'll next hear from Ms. Duval.

 STATEMENT OF MS. ALEXIS DUVAL, CHAIRWOMAN OF THE BOARD, HOUMA-
                 TERREBONNE CHAMBER OF COMMERCE

    Ms. Duval. Thank you Senator.
    Good morning. As Senator Vitter said, my name is Alexis 
Duval. I am the board chair of the Houma-Terrebonne area. Houma 
which is about 55 miles southwest of New Orleans, as a crow 
flies.
    The plight of coastal Louisiana has been a topic of lengthy 
discussion and much concern for Chamber members for many, many 
years. Coastal erosion crosses all barriers. It cuts through 
all spectrums of our society. It affects the economy, 
infrastructure, as well as the quality of our lives. These 
effects are far reaching. They cross parish boundaries. They 
cross State boundaries. They effect the entire Nation.
    We have all heard the statistics relating the amount of 
land lost over time, as well as that being lost as we sit here 
in this very room. There is no other area in this great country 
that is losing land as rapidly as the Barataria-Terrebonne 
National Estuary. Terrebonne Parish constitutes a large portion 
of that estuary system. Terrebonne Parish is unique as to both 
the causes of its coastal erosion problem and the solutions 
needed to contain that very erosion. Please note I said 
``contain.'' We are very aware that efforts need to be focused 
on maintaining the land mass we have in place and doing 
everything humanly possible to minimize, if not eliminate any 
future land loss.
    The causes have been studied and are well known. Lack of 
sediment deposits from natural flooding events eliminated by 
the containment of the Mississippi River and the Atachafalya 
River, salt water intrusion, sea level rise, subsidence, the 
unintended affects from oil and gas exploration, to name a few.
    Terrebonne Parish lies between the Mississippi River to our 
east and the Atachafalya River to our west. Because we are so 
far removed from these two sediment sources, restorative 
efforts will be the most costly. It will take a large scale 
diversion project to help the eastern part of our parish, while 
smaller scale diversion projects have been studied for the 
western part.
    Due to lost land, Terrebonne Parish residents are more at 
risk from storm surge because, unlike our neighboring parish, 
we have no hurricane protection levee.
    The Chamber fully supports the LCA restorative plan; 
however, we recognize that any comprehensive restoration plan 
will take years to build and implement. Therefore, our greatest 
priority is to ensure that a hurricane protection levee is 
built which offers the most instant protection to life and 
property.
    Authorization for a hurricane protection levee, Morganza-
to-the-Gulf, is presently contained in the WRDA bill that will 
be considered by Congress in the next few months. It is vital 
to the safety and well-being of the 100,000 plus citizens of 
Terrebonne Parish that the Morganza-to-the-Gulf levee system is 
authorized and funded.
    Efforts for coastal restoration in Terrebonne Parish will 
not be successful unless the effects of the Houma Navigational 
Canal, the HNC are addressed. Running North-South, the HNC cuts 
the lower half of our parish in two. The LCA near-term plan 
does not authorize any major project for Terrebonne Parish. 
Major projects contained in the original LCA plan include major 
sediment diversion projects from the Mississippi traveling 
westward and the Atachafalya traveling eastward and the lock 
for the HNC. These large scale projects must be addressed and 
funded. The HNC lock is presently being designed.
    My husband and I are both life-long residents of Terrebonne 
Parish. We raised our family in Terrebonne Parish. If I convey 
anything to you today, it is a plea for our safety and well-
being. As a businesswoman who is concerned for the well-being 
of our infrastructure and economy of our parish, and as a 
mother who is concerned for the safety of her family, my goal 
is to impart to you the urgency of our situation.
    Unlike a wildfire, earthquake or tsunami, the disaster 
occurring in our parish is insidious. Since it is occurring 
gradually, it has not drawn the attention of other natural 
disasters and we have let the problem fester until it has 
become malignant. Without a quick and decisive treatment this 
cancer will kill our community, and in the event of a major 
hurricane, will contribute to the death of many of our 
citizens.
    Monday morning as I watched the Channel 4 Eyewitness 
Morning News, I was struck by comments made by President Bush. 
The comments were part of a taped segment leading to his future 
talk to the Veterans of Foreign War. ``We must deal with 
threats before they fully materialize''.
    While I understand the President's comments were made in 
context of the War on Terror, I found they applied to our 
coastal plight as well. Terrebonne Parish and all of coastal 
Louisiana are at war with Mother Nature, and she has weapons of 
mass destruction. We are currently losing that war. Without 
large-scale Federal help, we are doomed.
    I applaud the efforts of our congressional delegation, and 
especially Senator Vitter and Senator Landrieu for the passage 
of the Energy bill with the revenue sharing provision. I know 
you realize that that passage was only the first step. I, along 
with members of the Houma-Terrebonne Chamber of Commerce, stand 
ready to help you in any way possible to ensure passage of a 
WRDA bill authoring both the LCA and Morganza-to-the-Gulf 
projects.
    Thank you.
    Senator Vitter. Thank you for your work. I, too, want to 
recognize the great work of your husband, Berwick; he's with us 
in the audience today. He's on the State's Coastal Commission 
and he's been an enormous leader in this effort for many years. 
Thanks.
    Now, we'll hear from Dr. Penland.

      STATEMENT OF SHEA PENLAND, DIRECTOR AND PROFESSOR, 
    PONTCHARTRAIN INSTITUTE OF ENVIRONMENTAL SCIENCES, AND 
 CHAIRMAN, DEPARTMENT OF GEOLOGY AND GEOPHYSICS, UNIVERSITY OF 
                          NEW ORLEANS

    Dr. Penland. Thank you, Senator. Thank you for the 
opportunity to speak before the committee.
    We've heard that coastal Louisiana has a land-loss crisis 
and hear about proposed solutions, proposed opportunities for 
restoring coastal Louisiana. We've heard very important 
comments from the previous panel, Senators. The important thing 
for us to realize is, in order to be successful in this battle 
against this restoration effort that our restoration efforts 
have to be proportional to our land loss.
    We've learned a lot over the last decade and a half, the 
CWPPRA Act, the State programs. One of the things we have 
learned is that we need to use the right tools; and the right 
tools are sediment, vegetation, and water.
    There are other tools, too, but those are the practical 
primary tools that have built the coastline.
    It's important to realize that we've heard that coastal 
land loss is at 20-24 square miles per year currently and it's 
been that way for a decade and a half and it continues today.
    This tells us that we need to implement larger programs, 
more effective programs. It's the challenge to Louisiana 
Department of Natural Resources, Army Corps of Engineers to 
implement these large-scale programs.
    We've heard about causes of land loss. Causes of land loss 
are complex, very complex. The French, the Americans, you'll 
see, began levees. We began the unintentional consequences of 
building the levee, flood control, eventually oil and gas 
exploration, navigation.
    It's a very complex thing and I think the blame games are a 
very important concept that--to understand, but we need to 
understand all the contributing consequences of coastal land 
loss.
    Hurricanes pose a great threat right now to our coast. 
Hurricanes have taught us that our Barrier Islands are very 
important. The measure for coastal erosion is land loss, and 
the measure for restoration should be land gain, and we need to 
make a difference there.
    If we look at the Atachafalya, we look at nature across the 
seas and we got to figure out how we can make a dent in this 
portion at 20 square miles per year. How do we do that? How do 
we build 20 square miles a year? It's a huge challenge. How do 
we do that?
    We've learned a lot, and we've learned things such as 
social impacts cannot be ignored. Some of those are unintended 
consequences also.
    We've also learned that we need to have tools of 
restoration that produce results in scales of less than a 
decade. Generationally, it effects us immediately; we've 
learned that. We have to believe in adaptive management. We 
have to--Even though we've been through the process of LCA, and 
we've made a near turn list for LCA of five projects, we're 
still learning about the projects and thinking about these 
projects.
    In LCA there are five main projects. What I've learned 20 
years ago is that you should do the simplest things first. 
Twenty years ago it was recommended doing a Barataria Shoreline 
project. Here we are 20 years later recommending the same 
project. We are looking at doing major restoration along the 
headland, Lafourche Parish, Shell Island, Plaquemines Parish. 
So these are things we understand how to do.
    In hindsight, we should build shorelines, vegetate them, 
and we know we can do that successfully as we are challenged by 
MR-GO, as we are challenged by the large-scale freshwater 
diversions, as we're challenged by freshwater diversions in 
Northern and Davis Pond.
    We can move large amounts of sediment more economically 
than we give ourselves credit for, pipeline slurry, moving 
materials that I think the Mississippi River had done, through 
a slow process built a building. We had to do it through a 
process enhanced by us, by man. The pipeline slurry, that's 
really the key to this.
    If you look at projects built through CWPPRA, we've learned 
that projects that move material via pipeline build land which 
is a measure of our success. That's what we have to look 
forward too.
    We also have to learn that the land ridge, Lake 
Pontchartrain, is important. We've learned that the coastal 
land loss in the Pontchartrain basin has accelerated, but it's 
more important on the land area such as the land of region of 
Orleans Parish and we need to pay particular interest to that 
with the energy process.
    Last, I want to leave for people who, you know, use the 
academic community, we understand the need for practical 
applied science. We understand the need for a new style of 
education for a new professional workforce here in New Orleans, 
here in the State of Louisiana, and I want to be sure that the 
University of Louisiana is here to help the DNR, State of 
Louisiana Corps of Engineers to help with these challenges of 
restoration in Louisiana.
    Senator Vitter. Thank you very much, Doctor.
    Now we'll hear from Mr. Randy Lanctot.

 STATEMENT OF MR. RANDY LANCTOT, EXECUTIVE DIRECTOR, LOUISIANA 
                      WILDLIFE FEDERATION

    Mr. Lanctot. Thank you, Senator Vitter for having the 
committee hearing down here in New Orleans, and other members 
of the Environment and Public Works Committee in the U.S. 
Senate.
    Senator, also thank you and to Senator Landrieu, and 
congratulations for getting the energy money (OCS), you know, 
those--all the people here that I'm sure were involved in the 
fight to get the CARA funding when we thought we really would 
bring it home, and even though what we really got was not what 
we originally hoped for, I heard the Cha-Ching when it was 
announced and we're pleased to be on the right track with the 
Nation recognizing that that's really our (Louisiana's) fair 
share and we need to continue to seek our fair share and insist 
that we do get that.
    I've been working for Louisiana Wildlife Federation for the 
past 25 years, and during that time, a lot--we've learned a lot 
about land loss, the causes and how to deal with it. What we 
learned most is that we're losing ground despite our best 
efforts to do something about it.
    Doctor Penland hit the nail on the head: We need to do the 
simplest projects that protect the most and get the land out 
there and vegetation and those things that create the habitats 
that the members of our organization are particularly 
interested in, the fish and wildlife resources and just by 
coincidence that's also important protection for our cities and 
our communities on the coast.
    If you have reviewed the Louisiana Coastal Area study, you 
know that much of the southern part of Louisiana was built by 
the deltas of the Mississippi River as it whipped back and 
forth over the continental shelf, and that land loss and land 
gain is normal for delta system. Under natural conditions, loss 
is balanced by gain, and that loss and gain occurs slowly over 
hundreds and even thousands of years, that's a timeframe long 
enough to invite disregard for the future evolution and the 
inevitable loss of delta lands.
    The immediate concern of the European explorers and 
immigrants to the region that is now South Louisiana was to 
keep floodwaters at bay, exploit the region's natural resources 
and establish commerce to support growing society. That 
familiar paradigm is common to communities across America.
    The delta's remarkable abundance and dynamic and 
challenging geology sets Louisiana apart from them all. I might 
add that we're more than happy to be different because of our 
lively and creative cultures, our great musical heritage, our 
wonderful cuisine, and carefree life view, which is all 
nurtured by our unique location on one of the world's great 
deltas, but we are not so happy to be different because we are 
the victims of losing our land to the sea.
    Land loss on a deteriorating delta is a natural process 
caused by wind, wave, tide, compaction of organic soils, 
subsidence and geologic faults and a complex of other things 
you need to read about in the LCA report. That loss is 
dramatically accelerated, however, by the people effect, the 
dredging for access and navigation channels; removal of 
subsurface minerals; unenlightened engineering of bulkheads, 
channels and dredged spoil deposition; impoundments; leveeing, 
and the list goes on.
    All of these are prominent contributors to coastal land 
loss, but many of these activities, of course, have kept us dry 
and generated products and wealth that have contributed to the 
local and national economies.
    Impacts of coastal erosion are the loss of tens of 
thousands of acres of wetlands and headlands in a domino effect 
fashion; along with that, loss of real estate and its economic 
value; the loss of wetland-based fish and wildlife habitat and 
its dependent wildlife and fisheries productivity, and along 
with that the economy and employment opportunities associated 
with that.
    There is increased risk of flooding and associated costs of 
insurance and disaster relief; the disruption and relocation of 
communities; outmigration of Louisiana citizens; increased 
costs to establish and maintain infrastructure, including 
infrastructure critical to energy production.
    The toll is in dollars, of course, but it is much greater 
than that. The particular interest of our organization, the 
Louisiana Wildlife Federation in coastal land loss is the 
inevitable loss of the fish and wildlife as their habitats 
disappear.
    As an organization that represents folks who are out in the 
field using and enjoying the natural resources of the State, we 
have a big stake in halting land loss and restoring the 
productive ecosystem that has made Louisiana the ``Sportsman's 
Paradise.''
    The LCA report represents a number of approaches to dealing 
with coastal land loss; one that has been rejected is GET OUT. 
Another is, Do nothing and take your chances. We concur with 
the LCA on that. One consideration that deserves more emphasis 
is the need to rethink and re-engage society's relationship 
with the Mississippi River Coastal Delta ecosystem to 
incorporate a larger measure of flexibility and uncertainty 
with respect to habitation and economic activity.
    We must adopt an attitude that will allow us to reconcile 
our expectations with the necessary changes that we will have 
to make, as individuals and as a society, to achieve a 
sustainable coastal ecosystem. To put it bluntly, we have to be 
willing and prepared to get out of the way of the projects that 
will be needed to accomplish that task. I think others have 
said that in other ways.
    In particular, as coastal restoration efforts impact 
coastal lands and waters, hunters, fishers, and other affected 
interests like landowners will be called upon to cooperate and 
accept fair consideration for any disproportionate losses that 
they will sustain and that are inevitable when the kind of 
coastal restoration efforts that are needed are applied.
    So far, that road has been a little rocky, but hopefully, 
the lessons learned from the past will smooth the way for the 
future.
    ``Attitude is everything,'' as the saying goes, and 
assuming all attitudes are adjusted to be in sync with the 
coastal restoration program, the solutions proposed by the LCA 
and efforts to follow can be accomplished, especially if we 
follow a fundamental rule of success: First, do no harm. 
Activities that contribute to coastal land loss can be limited 
and/or designed and redesigned to reduce impacts. This applies 
particularly to dredging and navigation and levee work and 
activities that reduce stabilizing vegetative structure. 
Requiring that local, State, and Federal activities and 
projects, including private activities that are regulated by 
Federal and State Government, are consistent with conserving 
and restoring the coast also falls under the do-no-harm 
concept.
    The LCA report contains an impressive statement of 
objectives and principles in Section 3.2 that is consistent 
with that concept in most respects, and we commend the Corps 
for including that in the report and making that commitment.
    There are many solutions as the LCA report articulates in 
Coast 2050 Plan. With a little informed contemplation, stating 
the solutions to coastal erosion is easy. Getting the political 
and financial support to do the work is a little more 
challenging. So in an effort to inform and educate the people 
from all around the United States about Louisiana and our 
coastal land loss challenge, Governor Blanco and the America's 
Wetland Campaign initiated a new outreach effort this week--
``Save America's Wetland: Write Now'' to encourage all of us to 
let our friends and colleagues throughout America know about 
what is at stake here and how we all are bonded to the outcome.
    So it is the intent of our remarks and our efforts to 
engage the members of the Environment and Public Works 
Committee and citizens throughout the country in hope that you 
will pitch in and lend a hand. I thank you for the opportunity 
to speak with you today.
    Senator Vitter. Thank you very much, Randy.
    Now we'll hear from Mr. Roy Francis.

       STATEMENT OF MR. ROY FRANCIS, EXECUTIVE DIRECTOR, 
                         LA1 COALITION

    Mr. Francis. Thank you, Senator. I appreciate the 
opportunity to be present today. I'm OK with being last; I've 
been last my whole life.
    I also want to thank you, the delegation, for being so 
successful. As you, I'm going on with another position and I've 
been telling people that, ``I got the money'' and I appreciate 
this new job offer based on you-all's success.
    As mentioned, my name is Roy Francis, and I am the 
Executive Director of LA1 Coalition, Inc. The Coalition is a 
non-profit organization created in 1997 by community leaders 
that has one goal--improve the infrastructure servicing Port 
Fourchon, LA. The founding members realized the threat to this 
critical energy infrastructure due to coastal land loss.
    I have worked in coastal zone management, flood protection 
and coastal infrastructure since I obtained my degree in 
geology in 1992. I feel I have come to understand the ripple 
effect of coastal land loss to infrastructure and the 
industries associated with oil and gas production.
    Coastal land loss is not only threatening our environment, 
but our very existence as a community. One of the greatest 
threats to infrastructure is to Louisiana Highway 1, a two-
lane, winding road that is the only means of land access to 
Port Fourchon, a port which currently services about 16 percent 
of this Nation's energy supply. LA1 is only 3 feet above sea 
level, Senator, and is subject to 8- to 10-foot storm surge. 
The highway provides access for 6,000 offshore workers and 
their equipment to support 75 percent of all deepwater 
activities in the Federal waters.
    The Leeville Bridge, the weakest link of this highway 
system was built in 10 feet of water. It now stands in 40 feet 
of water. It is the most scoured bridge in the State due to the 
water exchange between the Barataria and Terrebonne basins. All 
the land that surrounded the bridge is gone; it has 
disappeared.
    There is now a real threat to the oil and gas structures 
built on land that is no more. Hundreds of structures producing 
energy every single day, thousands of miles of pipeline buried 
underground are now exposed to open water. The pipelines are 
threatened by wave energy and impact of marine vessels every 
single day.
    One of the major oil and gas companies that operates at 
Port Fourchon transports over 600,000 barrels of oil per day 
through pipelines in coastal Louisiana. They spend nearly $5 
million per year reacting to coastal erosion, repairing 
bulkheads, relation of pipelines and marking pipeline 
crossings. Another company's main offshore support base is in 
Leeville, an area that has sank 14 inches in the last 20 years.
    Not only is the country's domestic supply threatened, but 
13 percent of this United States' imported crude oil is 
offloaded at Louisiana Offshore Oil Port. It is based in 
coastal Louisiana and serviced through Port Fourchon. The 48-
inch pipelines are connected to 35 percent of all United 
States' refinery capacity; and remember, this country has not 
built a refinery in decades and they are at 96 percent 
capacity.
    The impact of LA1 affects more then the Nation's energy 
production. The highway was built on the Bayou Lafourche Ridge 
and now is the dividing line between the Nation's two most 
productive estuaries, the Barataria and Terrebonne basins. 
About 20 percent of the State's total catch goes to market by 
way of LA1, in a State that leads the lower 48 in fisheries 
production as you mentioned. The loss of these wetlands is a 
loss to fisheries production.
    Another impact, as our parish president mentioned, is the 
impact to our water supply. In 2000, salt water intruded into 
Lafourche Parish's water pumping system about 50 miles inland 
via a channel in a neighboring parish. For the first time, the 
people of South Louisiana did have a taste of coastal land 
loss. The paper mill had to shut down, the oil and gas industry 
which uses over 20 percent of the parish's water supply was 
affected. We couldn't drink the water, and the children bathed 
in salt water.
    All of this could have been avoided with a lock and 
floodgate on that channel of that neighboring parish.
    Our flood protection, as Jerome mentioned, are also at 
risk. Historically, these marshes would act as buffers around 
the levees, holding back the energies of the waves against the 
base of the levees. Today, open water now surrounds those 
earthen ring levees and wave action erodes at them every single 
day. The floodgates on the levees have to be closed earlier, 
more often, trapping marine vessels outside, trying to get out 
of the way of storms.
    The Louisiana coast is a blue collar coast, unlike many of 
its State's coastal areas. It is not a place that we just 
visit, it's a place where we live, work and play. It is no 
longer just about the birds and the plants; it's about coastal 
land loss affecting every aspect of our lives.
    I thank you, Senator.
    Senator Vitter. Thank you very much, Roy. Sorry to make you 
last to testify, but it was either that or putting you last in 
the highway----
    Mr. Francis. I always go with the money, sir.
    Senator Vitter. I have a few question to round up the 
hearing.
    Mr. Zeringue, thank you again for being here. You touched 
on a very important project that we're working on in the WRDA, 
Morganza. Could you again explain briefly the direct concrete 
complications to that project caused by the coastal erosion?
    Mr. Zeringue. Thank you, Senator. The problems that we 
face, obviously, is constructing a project of this magnitude, 
it's going to take a substantial amount of investment and it's 
going to require sensitivity, and much to the credit of the 
Corps of Engineers and our partners, the Louisiana Department 
of Transportation and Development have gone a long way to 
address the need, the obvious need for flood protection in the 
areas to protect the citizens.
    But also keeping in mind the environmental concerns and 
need to protect the resources that are there. So what we are 
doing is developing the flood protection system and those 
structures that work in concert to protect the people but also 
the environment.
    Again, much of the credit to the Corps, unlike other 
projects that Federal law provides, the highway habitat 
evaluation teams to get the project passed and the 
environmental impact statement, and it means going to another 
project. The habitat evaluation team for the Morganza-to-the-
Gulf Project will survive throughout the life, the 50-year life 
of the project, which we hope will last even past 50 years but 
will provide, will be there to serve and work with the Corps 
and the Levee District to operate those gates.
    Because, as I mentioned, you know, this is a dynamic system 
and there's no way we can just put up a levee or put up a 
structure or build a few acres of marsh and expect it to be 
there. We are going to have to manage it, and as Dr. Penland 
said, we're going to have to continuously maintain those 
structures, and we hope to achieve that.
    Senator Vitter. Great. Thank you. As I mentioned to 
Secretary Angelle, it really irks me whenever it's suggested, 
particularly at the Federal level, that somehow we're involved 
in demanding handouts here.
    With respect to Morganza-to-the-Gulf and activity, 
particular in your area, could you explain the funding 
commitments of citizens on the ground in Lafourche and 
Terrebonne.
    Mr. Zeringue. It wasn't that much of a hard sell. I mean, 
obviously when you tax someone, no one favors tax but the 
problem is so immediate and so apparent. Right now, we have to 
close floodgates. High tides and southeast winds puts water on 
roads. The title prism, because of the loss of the levee, has 
moved so much further in, so we're feeling the effects from not 
so much storms but just different tidal events much sooner and 
much quicker.
    So people are recognizing that and they feel that they're--
obviously something needs to be done and they just took it upon 
themselves, fortunately, to tax themselves to apply that money 
to meet our portion of the cost share. I know we had 65/35 
percent cost share. Ideally, we could get it to 75/25, we'd 
appreciate that as well, but we believe that this project is so 
important to the economy and for their--our ability to live 
down there in Terrebonne Parish, that the citizens, much to 
their credit, have agreed, and we're applying that.
    It can only be used, and there's no sunshine, perpetuity, 
this money will be applied. We believe that we can, with our 
help from our State Delegation, meet our amount of Federal cost 
share.
    So you're right, we're not asking for a handout. We 
recognize a commitment. We recognize that we need to do our 
part in terms of funding this project, and we are capable and 
stand ready to do that, but we can't fund the whole thing.
    Senator Vitter. Great.
    Ms. Duval, as one of the chief economic development 
officers of your region, could you explain how these issues 
have a direct impact on economic development job creation 
efforts?
    Ms. Duval. Certainly. Thank you.
    As our parish becomes more susceptible to flooding and not 
just from major storm events, as Jerome has alluded to, but 
just from day-to-day south winds or a storm perhaps going way 
to the west of us--I know we were flooding tremendously when 
Tropical Storm Allison went into Texas several years ago. But 
these day-to-day flooding events are undermining the goals to 
keep our business to obtain affordable insurance or insurance 
at all for their infrastructure and equipment.
    That just has a spiraling effect. If you don't have 
insurance, it's hard to get financing; the real estate market 
begins to collapse, the economic of the base of your community 
begins to collapse, it starts with one little thing but it has 
a spiraling effect that runs through the whole spectrum of our 
economy.
    Senator Vitter. In terms of those economic job effects, how 
would you describe the trends of the impacts in your region 
over the last, say, 20 years?
    Ms. Duval. Well, we have been very fortune that the oil and 
gas exploration is still so vital and even though we had a 
downturn, you know, back in the 1980's, it wells up again and 
oil and gas exploration is the No. 1 economy of our parish.
    We still have people coming in but you have them doing a 
lot more investigatory work today than they would have 20 years 
ago. There has to be a lot of profit made upfront to be able to 
absorb the added expenses that doing business in South 
Louisiana generate.
    One thing I didn't--and we also, the commercial and the 
recreational, that is a huge industry for Terrebonne Parish. 
While it is very good right now, the scientist at LSU have told 
us that the miles of our estuary, this will change that and, 
you know, everybody is catching fish where you never caught 
fish before, you know.
    I just recently built a home off of the Intercoastal Canal 
in Houma, which is in Northern Terrebonne Parish. You can catch 
redfish and speckled trout in my backyard, and that's supposed 
to be freshwater. So I mean, it just--it just spirals, Senator.
    Senator Vitter. Great. Thank you.
    Doctor Penland, you're very focused on the science of this 
effort. What are the greatest uncertainties in the science, 
broadly speaking, as we move forward with this effort that we 
need to resolve?
    Dr. Penland. I think that, Senator, with the uncertainties, 
we need to resolve any near-term, short-term gaps information 
that will prevent limitation of LCA projects and moving forward 
with successful completion of those. Sediment resources, do we 
have enough material? We do. But we need to get that message 
out to the planners and engineers that we do. They're going to 
have to make greater use of the river, use the material 
offshore, but the material there is to move forward which is 
not--project, thinking that we have a material deficit out 
there.
    Senator Vitter. All right.
    Can you describe the relationship between the 
channelization uppercoast and the lower Mississippi and coastal 
land loss?
    Dr. Penland. Well, one of the challenges is trying to 
understand the cause of land loss. Regionally, in terms of 
centuries, we have been leveeing the river, be it with the 
French, be it with early exploration, birth of our country, we 
have been altering the hydrology of the levees; this is how 
it's been.
    Superimposed upon that are things such as navigation, such 
as oil and gas, hurricanes. It's a very complex problem. But, 
fundamentally, river-controlled levees, stopping the delta, 
which is the process involved, is playing havoc on our 
landscape.
    Senator Vitter. Final question, because this is a central 
question that comes up in the national debate with 
uncertainties, with various factors. Fundamentally, do you 
believe coastal restoration is truly possible?
    Dr. Penland. Coastal restoration is truly possible using 
the right tools, using them in proportion to the land loss. We 
need to accept through our learning experiences through the 
Breaux Act, the LCA planning that pipeline slurry, us getting 
out there and basically mimicking Mother Nature much more 
rapidly than she did naturally, that we can do that. We've 
demonstrated that.
    We have rebuilt barrier islands. We have built marshes for 
a variety of Federal programs. The issue is about being--[in 
audible] fortunate to the magnitude of the loss. All we need 
now is--with your support, is to move forward with division 
regional restoration that will be successful with this 
implementation.
    Senator Vitter. All right. Thank you, Doctor.
    Randy Lanctot, broadly speaking, does the LCA program have 
the support of the environmental community?
    Mr. Lanctot. Well, certainly I think that the environmental 
community in the State of Louisiana; nationally they may have 
some trouble with the change in cost share that we would 
advocate and that sort of thing. I think, by and large, they do 
support the LCA plan. I think you can look forward to that as 
it moves forward.
    Senator Vitter. What do we have to do to even broaden that 
support nationally so this is properly recognized as a national 
priority in terms of environment concerns?
    Mr. Lanctot. I think that's really a grassroots effort. The 
Governor, as I mentioned in my presentation, kicked that off 
the other day to let folks around the country know what's going 
on down here. If they have a stake in it, just tell them a 
little bit about our State that--I'm not from Louisiana. Please 
don't whip me for it.
    Senator Chabert, Leonard Chabert used to give me ``what 
for'' every time I testified before his committee down at the 
Capital in Baton Rouge. He'd ask me, ``Where are you from, 
Boy?''
    But anyhow, you know, we give ourselves a bad wrap. One of 
the terrible things we do is flog ourselves in public over: 
``We're not doing this right, we're not doing that right.'' 
That's a shame. I've been around the country and we're no worse 
than any place else. Most people around the country don't 
really have a thought about Louisiana.
    They think we're like Mike Fink, riverboat pilot and all 
that, and Errol Flynn movies and things like that, and they 
know about Mardi Gras, but they don't really know about 
Louisiana. They're fascinated by it. So we have an entre to 
explain a little bit about our culture and what's going on 
here, and I think the rest of the country will be very 
receptive to that and will support the programs down here and 
will support the funding to get it done, but we have to take 
more of an initiative and not have such an inferiority complex. 
That's ridiculous, and shame on us.
    Senator Vitter. Thank you. Thank you for your group's 
efforts in terms of that national education campaign in 
conjunction with your partners around the country.
    I can tell you from personal experience, you know, Mary and 
I talk to our colleagues all the time in the Senate about this, 
and that's a fact. But there is one thing that is even more 
effective, is when they hear from folks in their State, voters 
who vote for or against them, about this and how it's a 
national environmental issue. That's beginning to happen 
through national networks and national organizations, so I 
certainly want to encourage that. Thank you.
    Finally, Roy Francis, thank you again. Of course you've 
been working hard on the LA1 project. What's the total cost of 
that project? Although it can't be quantified precisely, what 
might the total cost be without coastal erosion, say, the last 
30 years?
    Mr. Francis. Basically, we're having to build a bridge so 
that the entire highway system will be an elevated 22 feet 
above sea level and built to withstand a Category 4 hurricane; 
so that will add additional costs based on that.
    Senator Vitter. So basically, instead of building a 
highway, you build a bridge.
    Mr. Francis. Because you look at what's happening in 
coastal erosion. Basically at some point it may just be the 
ring levee at South Lafourche and another bridge tying into 
Port Fourchon as that marsh continues to erode. The cost for 
the elevated highway or bridge from the ring levee to Port 
Fourchon will be about $650 million. To build a highway from--
all the way up to US 90 is total $850 million and the first 
phase will be about $200 million for construction.
    It's not--you're dealing in a harsh environment and the oil 
and gas companies need to be on the coast. That's what they 
have, there's probably no better place geographically, 
environmentally than Port Fourchon to service this industry, 
and that's where they need to be at.
    Senator Vitter. Correct. How many times has LA1 been 
impassable, say, south of Golden Meadow?
    Mr. Francis. It varies from the year. For example, with 
Ivan, it flooded twice. When Ivan came around the first time 
and when it came back as a depression, it doesn't take a storm 
to flood LA1; just a bad southeasterly wind now will inundate 
the water--the road with flood waters.
    It may average three, four or five times per year, depends 
upon just the systems in the Gulf of Mexico. But storms in 
Mississippi or even Florida affect LA1 now; it just doesn't 
have to be a storm that impacts the Louisiana directly.
    Senator Vitter. To tie this into something the Nation 
definitely does care about, what does the closure, any closure 
of LA1, and this is happening four or five times a year, what 
does that do to gasoline prices, oil and gasoline prices?
    Mr. Francis. You're going to pay more at the pump. We use 
this--We're the first to create this effort. Hats off to all 
the people of South Lafourche; they created this effort. They 
put their money where their mouth was, and they saw what was at 
risk. This is when gas was at about 97 cents, and we would say, 
``Just imagine gas being $3 a gallon.''
    When you look at 16 percent of the United States' energy 
supply being supported by this one port, that's significant. 
The Gulf of Mexico is one of the top geological regions in the 
world. And we talk about the Persian Gulf, that supplies 23 
percent of our crude oil. Well, we supply domestic and imported 
crude oil and natural gas through these facilities. You would 
see a significant impact to the price with heating oils along 
the east coast and also the country and also the gas price. 
This port, if you lose the highway, you know, there will be a 
shutdown in the activities at the port. If you look at just 
what happened with Ivan and the impact of a barrel of oil, the 
price for that period of time, that those structures were 
impacted in the Gulf of Mexico.
    The Leeville Bridge, we sent a diver down a year and a half 
ago to do a survey. He was actually able to swim underneath the 
pile that supports the bridge. I was in the paper the other day 
as saying, ``It was like a telephone pole being held up by the 
wires itself.''
    The bridge is at risk for what engineers call ``critical 
failure.'' To us down the bayou, the thing is going to fall 
into the water. If you lose that structure you're going to have 
to carry a thousand 18-wheelers to the port. I don't know how 
that's going to happen.
    We're in trouble.
    Senator Vitter. That is the only access to the port, which 
is 20 percent of our energy needs.
    Mr. Francis. You have no other choice. I think, you know, 
when people are filling up their SUV, they don't realize what 
it takes for that to happen. I know we need to look at 
alternative sources of fuel, you know, how much we need to 
conserve, but until we, you know, really put some programs 
where it hits them--and we have to have this resource.
    Other people want to be furious and think that, you know, I 
don't want this off my coast, but everybody wants to use it. I 
hate to say it like this, but nobody really road a bicycle 
here.
    Audience Member. I walked.
    Mr. Francis. You walked?
    Audience Member. Yeah.
    Mr. Francis. That's 1 percent out of 120 people.
    Senator Vitter. Well, again, I think it's important to tie 
up to any legitimate national concern of gasoline pump prices. 
We're talking about a service port that helps account for 20 
percent of our needs.
    Mr. Francis. Correct. That's the thing. As this gentleman 
mentioned, he walked, but if you look at what's going on in the 
country and the need and what's happening in other countries, 
you know, there's going to be more and more of a demand on this 
resource with China coming on-line, developing nations; that's 
just the world that we live in.
    Senator Vitter. Final question, and my staff thought it was 
very important to get this on the record of the U.S. Senate, 
and that's: What type knot would you tie to connect a rope to a 
boat?
    That's an inside joke. I think Roy has--
    Mr. Francis. This goes into the record? When you say, 
``staff,'' I think I know the individual you made reference to. 
Senator Vitter, all I can say is that I was in the vehicle, I 
launched the boat and I looked back in my rearview mirror and 
there was a gentleman, who represents you, holding both ends of 
the rope.
    Now, as I understand, he was born and raised in Baton 
Rouge, not quite on the coast, but when I asked him to ``hold 
the rope,'' I did not mean take it off the boat and hold both 
ends. But he did as he was told, sir.
    Senator Vitter. I'll be very careful to phrase my 
instructions to him very carefully.
    I want to thank you-all for all your leadership. I want to 
in particular thank our host today, the University of New 
Orleans led by Chancellor Tim Ryan. With that, the Senate 
Committee on Environment and Public Works hearing is adjourned.
    [Whereupon, at 12:10 p.m., the committee adjourned.]
    [Additional statements submitted for the record follow:]
Statement of Major General Don T. Riley, Director of Civil Works, U.S. 
                        Army Corps of Engineers
                              introduction
    I am Major General Don T. Riley, Director of Civil Works, U.S. Army 
Corps of Engineers. I am pleased to be here today and to have the 
opportunity to speak to you about the Louisiana Coastal Area (LCA), 
Louisiana-Ecosystem Restoration Program. My testimony today will 
provide a brief background and update the Committee on progress made to 
date by the Corps of Engineers and the State of Louisiana in addressing 
the serious degradation and loss of this nationally significant 
ecosystem.
                               background
    The loss of Louisiana's coastal wetlands has been ongoing since at 
least the early 1900s with commensurate deleterious effects on the 
ecosystem. There have been several separate investigations of the 
problem and a number of projects constructed over the last 30 or so 
years that provide localized remedies. For example, since 1990, under 
the Coastal Wetlands Planning, Protection, and Restoration Act 
(CWPPRA), Federal agencies and the State of Louisiana have completed 
projects that we estimate will result in the creation or restoration of 
a total of 66,000 acres as well as enhancing 321,000 acres of coastal 
wetlands. Under this Act, the principal Federal wetlands agencies and 
the State use a competitive process for allocating funds to potential 
wetlands restoration projects. They select the best individual projects 
on the merits, but lacked an overall strategy to identify integrated 
groups of projects that could yield greater environmental benefits by 
acting in concert on a watershed basis. It has become apparent that a 
more systematic approach can be more effective in restoring natural 
processes. In recognition of this, in 1998 the CWPPRA Task Force 
developed ``Coast 2050: Toward a Sustainable Coastal Louisiana'' which 
detailed a set of strategies for addressing the needs of this complex 
ecosystem more holistically.
    In March 2002, Louisiana and the Corps jointly decided to undertake 
development of a comprehensive plan, and signed an amendment to the 
original Barataria Basin study cost sharing agreement to initiate a 
broader ecosystem restoration study. Building on the Coast 2050 plan, 
the LCA Study team produced an internal, preliminary draft report in 
October 2003. Guidance from the Assistant Secretary of the Army (Civil 
Works) and in the President's fiscal year 2005 Budget identified the 
need to refocus this study's effort to address the most critical 
ecological needs of the Coastal Area over the next 10 or so years. The 
Corps and the State have worked together to develop a restoration 
program consistent with this guidance. Our recent study is a multi-
agency achievement reflecting the partnership of both the Corps of 
Engineers and the State of Louisiana through its Department of Natural 
Resources.
    Based upon data and lessons learned from similar projects initiated 
in past years, the report proposes to address ecological needs through 
a series of projects targeted to the parts of the ecosystem that 
require the most immediate attention. Further detailed analysis and 
site specific design for these projects will ensure that the selected 
projects are highly cost-effective and represent the best way to use 
the available funds. In short, we will focus our efforts on the parts 
of the ecosystem that require the most immediate attention, and will 
address these needs through features that provide the highest return in 
net environmental and economic benefits per dollar of cost. The report 
also calls for studies of potentially promising, long-term ecosystem 
restoration concepts, with the objective of determining whether they 
would provide a highly cost-effective way to create coastal wetlands. 
In addition, the report underscores the need to address the key 
scientific uncertainties and engineering challenges associated with 
coastal restoration, and to otherwise lay the groundwork to improve the 
cost-effectiveness and likelihood of success of restoration efforts 
undertaken during, and beyond, the immediate 10-year period of the 
current plan.
                             current status
    Governor Kathleen Babineaux Blanco and LTG Carl A. Strock, Chief of 
Engineers, signed a partnership agreement on Monday, Jan. 31, 2005, 
dedicating their ``combined efforts towards a common goal of reversing 
the current trend of degradation of Louisiana's coastal ecosystem.''
    In addition, LTG Strock signed his Chief of Engineer's Report, on 
the Louisiana Coastal Area Ecosystem Restoration Study. The Chief's 
approval reflects his commitment to an integrated approach, which 
targets the available resources in highly cost-effective ways to meet 
the most immediate ecological needs. This approach builds upon, and 
will advance, the ongoing restoration effort that is already underway. 
It is the next logical step in this effort.
    As noted in LTG Strock's Chief's Report, the challenge of creating 
a program that can rapidly put structures in place means that we cannot 
simply proceed with business as usual. This of course presents a number 
of policy issues about how the LCA Program is to be structured and 
funded. Those policy issues are beyond the purview of the Corps of 
Engineers and must be decided by Congress and by the Administration. I 
know, however, from their interest and participation in our work so far 
that the Administration strongly supports the effort to help protect 
and rebuild this ecosystem, and recognizes the urgency of addressing 
this challenge.
    In accordance with guidance from the Secretary of the Army and 
consistent with the Chief of Engineers Report, we look forward to 
working with the State of Louisiana to develop streamlined approaches 
and efficient ways to effectively address these issues in the most 
cost-effective and timely manner. We are committed to putting a program 
in place that will enable the State and the Nation to make significant 
progress towards protecting and rebuilding this nationally significant 
coastal ecosystem.
    This concludes my statement. Again, I appreciate the opportunity to 
testify today. I would be pleased to answer any questions you may have.
                                 ______
                                 
    Statement of Scott Angelle, Secretary, Louisiana Department of 
                           Natural Resources
    Mr. Chairman--I am honored to sit before you today to testify on 
behalf of the pending WRDA bill and a provision that is of critical 
importance to my state of Louisiana-the Louisiana Coastal Area 
Ecosystem Restoration Plan (LCA).
    As you well know, Senator, Louisiana's coast--America's Wetland--
provides benefits to our nation that are unrivaled by any other coastal 
area in the United States--benefits that include the hosting of 80 
percent of the Nation's offshore oil and gas supply, a third of the 
Nation's fisheries' landings, wildlife habitat for the second largest 
flyway in the United States, and the nursery ground for marine life for 
the entire Gulf of Mexico. These working wetlands also provide 
protection from storm surge for the world's largest port system and for 
the two million citizens who live and work in Louisiana's coastal zone.
    As these wetlands continue to disappear at the alarming rate of 24 
square miles a year, the Nations economic and energy security is put at 
great risk. As energy pipelines are exposed to open Gulf conditions and 
protected wetland areas become open bays, the national environmental 
and economic implications are unthinkable.
    The loss of America's Wetland has reached crisis proportions and 
the Congress must address it as a ``special circumstance'' through both 
funding and speed of action. The restoration needs of this area cannot 
be compared with the Everglades or with any other ecosystem in this 
country. No place else on the planet is experiencing this magnitude of 
land loss and no place else will the impacts to the United States be so 
severe.
    There are many causes of Louisiana's land loss, both natural and 
man-made, not the least of which is the leveeing of the Mississippi 
River--done for the best of reasons to protect citizens from flooding 
and for the Nation's navigation needs. But the unintended consequences 
of this Federal action prevented the natural flooding of the river from 
depositing sediment and fresh water in this great delta so that the 
wetlands replenish and rebuild.
    Oil and gas pipeline canals and east/west navigation channels have 
exacerbated the loss by allowing saltwater intrusion and wave action to 
further degrade the system.
    The natural subsidence of the land and sea level rise also play a 
part in the destruction.
    This is not about blame, but about all of us pulling together to 
save this strategic area and to sustain its values for future 
generations of Americans.
    Because of the special circumstances surrounding Louisiana's unique 
situation, I would like to point out certain elements of the proposed 
LCA plan that we consider crucial to our success in saving this 
ecosystem:

    <bullet> Louisiana is proposing a 35 percent State/65 percent 
Federal cost share match, not just because ours is a poor State and 
will find it difficult to achieve even that level of matching funds. 
Because of the Federal actions associated with the loss and the 
national benefits derived from this area, we feel the cost share is 
more than justified. Unless and until there is a permanent and steady 
stream of revenues like those tied to the sharing of Outer Continental 
Shelf revenues, Louisiana would not have the ability to carry a greater 
cost share burden.
    Our citizens are serious about using such funds for the purpose of 
restoring our coast. In our legislative session that just ended, 
enabling legislation was passed unanimously that would allow our people 
to vote on a constitutional amendment to dedicate the first $600 
million a year to this purpose. We have reason to believe such an 
amendment will pass a vote of the people overwhelmingly, as three 
others have passed in recent years that would help prepare us to fund 
this massive effort.
    <bullet> The recent passage by Congress of the Energy bill is the 
first major step in this direction and on behalf of all of us in 
Louisiana, I thank you Senator and our entire delegation for your great 
victory. We consider it a tremendous down payment for the work ahead. 
We refer to it as a down payment, not out of greed, but out of critical 
need of a permanent funding source.
    The President has stated that Louisiana and the other coastal 
producing States should use the revenues to draw down further Federal 
funds. Because of this, we would like to see language in WRDA that 
states that these and future such revenues can be accepted to match 
other Federal dollars, such as through a WRDA bill.
    <bullet> As we embark on our plans for spending the Energy Bill 
funds, we will be jump-starting scientific modeling for projects 
included in the LCA and accelerating the design and construction of 
these projects. Therefore, we feel it is absolutely necessary for this 
work to be accepted as in-kind credit by the Corps of Engineers.
    <bullet> I spoke of the urgency and need for swift action to 
address this devastating land loss. Ironically, it will probably not be 
the lack of funding that prevents us from achieving our goal, but the 
cumbersome, protracted Corps of Engineers process we must endure. By 
the Corps' own admission, it takes an average of 11 years from 
authorization to completion of a Corps project. That's an average. We 
have a river diversion that took twice that length of time to complete.
    Louisiana does not have the luxury of that kind of ``business as 
usual''. Sounds good on paper, but the reality is we will have very 
little land to save if the LCA is not treated as a ``special 
circumstance'' and urgent changes to the present Corps process are not 
made.
    <bullet> The question has been raised about the need to continue 
the CWPPRA program in light of an authorization of the LCA. Louisiana's 
response is a resounding ``yes''. A job this big requires more than one 
tool and since Congress enacted the Coastal Wetlands Planning, 
Protection and Restoration Act in 1990, the program has played a key 
role.
    A large-scale restoration program, even a near term program as 
envisioned by the LCA, is fundamentally different in scale and 
approach. CWPPRA is a program that can roll out projects in less than 5 
years in response to critical, local needs. It fills the gaps through 
its flexibility and comparatively quick turn-around time and addresses 
smaller, yet critical projects that buy us time as we tackle the 
larger, longer-term solutions.
    CWPPRA has forged valuable partnerships, not only between the State 
of Louisiana and its five Federal partners led by the Corps of 
Engineers, but with our local parishes, who depend on the program
    The CWPPRA program must remain active if we are to protect key 
national assets and ensure the safety of our citizens. The crisis will 
not wait while the more massive projects are fine-tuned. In short, 
CWPPRA is responsive, fiscally prudent, complementary of the LCA plan, 
community-supported, well established and science based. (I have 
included a document with my written testimony entitled ``The Case for 
CWPPRA'' that details the critical role CWPPRA plays in our restoration 
efforts.)
    <bullet> Finally, I would like to address an element of the 
proposed LCA plan that the state of Louisiana considers imperative to 
its success-the Science and Technology Program. The design of the LCA 
plan is based on the continued need for sound science and engineering 
to guide the effort. The value of an independent, yet inclusive science 
and tech program is undisputed by state and Federal agencies, NGOs and 
our coastal stakeholders.
    I have included with my written testimony a short document that 
outlines the S&T Program proposed in the LCA plan. It includes a 
science advisory board-named by and given oversight by the USGS, a 
science coordination board, and other elements that ensure the 
coordination of all appropriate Federal and state agencies, as well as 
front-line scientists from academic institutions in and out of the 
state.
    It has taken the work of many people more than a year to design the 
proposed S&T program and the result has been buy-in at every level. We 
feel it would be unacceptable for the program to be turned over to any 
one Federal agency to direct and implement.
    In closing, Mr. Chairman, I would like to stress to the committee 
that Louisiana is a land in crisis. There is no excuse for business as 
usual. We are experiencing an emergency. Because of the national 
benefits provided by this coastal area and the national impacts 
associated with this crisis, Congress should recognize it as a special 
circumstance and address efforts to save it accordingly.
    Thank you for taking the time to hear the views of the State of 
Louisiana today on this issue so critical to our survival and to the 
future of our Nation.

[GRAPHIC(S) NOT AVAILABLE TIFF FORMAT]

                                 ______
                                 
      Statement of Charlotte Randolph, President, Lafourche Parish
    Lafourche Parish was built by the force of the Mississippi River. 
That force took the soils from 41 percent of the United States and 
reassembled that sediment into a natural platform for 2 million people 
to live in southeast Louisiana. Plainly stated, the Mississippi River 
system has built a platform of ridges, swamps, marshes, estuaries, 
rivers and bayous which serve the Nation through navigation, gas and 
oil supply, and fisheries production. The need for navigation and flood 
control has caused the natural cycle of building land to change so that 
wetlands, beaches and ridges are now being lost at 25 to 35 square 
miles a year. The continued degradation of one of the most important 
environmental and monetarily valuable deltas in the world should be 
addressed seriously on the Federal level. There is no other place in 
the United States that has provided the function of this delta. The 
Federal Government has finally recognized that damage in South 
Louisiana was in the pursuit of national interest. Because of national 
interest, we insist that the damage be mitigated. Louisiana has 30 
percent of the Nation's coastal wetlands. Of the Nation's total 
wetlands' loss, Louisiana is experiencing an astonishing 90 percent of 
that loss. We are also losing elevation in the range of one foot in 20 
to 30 years in an area where most of the dry land is no more than seven 
feet above sea level.
    These land loss factors not only threaten an important 
environmental area, it places 2 million people at greater risk from 
hurricane storm surge. Major pipelines and other infrastructure for oil 
and gas are now exposed to more extreme hazards. This oilfield 
infrastructure was constructed in protected waters of coastal 
Louisiana. Much of the area is transitioning into an open water marine 
environment. This directly affects the working condition of this 
infrastructure to contain the oil and to deliver it to its markets 
nationwide. Surface water used for industry and drinking has been 
contaminated on several occasions by increased salinity at the raw 
water intake 45 miles inland. This has made the water source unusable 
for thousands of people and several industrial plants during these 
events. We tasted salt in our drinking water; people with high blood 
pressure were advised to boil their water. This system we use serves 
300,000 people. Senator Mary Landrieu stepped in with emergency funds 
to build a structure that would help alleviate this problem. We're 
investigating building another. To solve these challenges from the 
Gulf, we must enhance our natural protection such as barrier islands 
and marshes, and protect our increasingly threatened communities. For 
our communities it is necessary to build tidal and hurricane levees, 
and increase the elevation of the levees in communities which already 
have protection. Although we have retreated from the most threatened 
communities, we can justify protection for the remaining areas. These 
communities support people and businesses which work to provide 25 
percent of the Nation's oil and gas, supply five (5) of the top 15 
ports in the country, and produce 30 percent of the fisheries of the 
lower 48 States. To abandon these communities is to abandon over $100 
billion in public infrastructure. Studies indicate that for $10 billion 
to $15 billion, this environmentally and economically productive area, 
and its communities, can be maintained. Re-introduction of Mississippi 
River water and sediments will allow us to maintain, and possibly 
regain thousands of acres of wetlands. Re-nourishment of our 
uninhabited barrier islands with quality offshore sand through pipeline 
sediment delivery would re-establish much of the tidal protection which 
has been lost. It will reduce the tidal prism which has increasingly 
invaded marshes, 30 miles from the coast. A comprehensive plan of 
lateral barriers would protect us in the near term, while we implement 
the long--term sediment recovery processes. These projects would, in 
effect, keep the wetlands wet and the dry lands dry. The marriage of 
structural flood protection for the communities and re-establishment of 
the environment functions of our barrier islands and marshes is what we 
term Comprehensive Hurricane Protection. A substantial portion of the 
levee work has been accomplished through the Congressional 
authorizations in 1965. However, new authorizations are necessary, 
along with financial support for completion of the ongoing projects. To 
some degree the erosion problems of South Louisiana are attributed to 
international trade, and domestic onshore and offshore oil development. 
When one realizes that $5 billion of royalties and lease payments go to 
the Federal treasury only through the support of coastal Louisiana and 
the infrastructure it provides, it is obvious that this source of money 
should fund the repairs of the impacts its production causes. Louisiana 
has virtually no direct share of those revenues, according to 
agreements with the Federal Government. Other States, which are 
impacted by oil and gas development on Federal Government lands and 
waters, receive 50 to 90 percent share of the revenues from that 
development. No American argues the fairness of that sharing to the 
States that accept this burden. The Federal Government is receiving 
this revenue through the support of coastal Louisiana and the fragile 
platform on which it sits. We ask that the Federal Government reinvest 
the revenue necessary to protect the communities which work to produce 
the energy. It should reinvest the revenue necessary to maintain the 
most biologically productive ecosystem in the lower 48 States. If the 
Federal Government takes care of protecting its interest, Louisiana 
will not need funding since protection of the Federal interest protects 
our unique corner of America. We do not ask for money from other 
States. Only reinvest in the place which is producing this revenue. As 
this is written, we monitor another tropical system. Last year, we 
narrowly escaped the devastation of Hurricane Ivan, which, save for a 
slight jog to the north, would have presented our worst case scenario 
as to storm surge. A minor system, Tropical Storm Matthew followed, 
causing over $1 million in water damage to a facility owned by 
Lafourche Parish's top tax payer, among others. How do we implement an 
effective drainage system? We must get the water out, yet there's no 
place for the water to go. We spend millions annually on drainage 
projects against rising tides and lower elevations.
    Senator Vitter has offered a series of five coastal bills which 
addressed near-term and long term solutions to our problem. For a very 
long time, members of our Congressional delegation have been 
petitioning our government for assistance. True success will be 
achieved when the Nation's leader fully recognize the value of coastal 
Louisiana and fully fund the projects necessary to protect us. We are 
indeed grateful for the recent allocations provided in the recently 
enacted Energy bill and the Transportation bill. These funds provide 
for opportunities to reinforce our existing levee systems as well as to 
construct a major highway to the very significant Port Fourchon. It's a 
good start and we thank you for these funds. Louisiana's Governor 
Kathleen Blanco said it best when she noted that we are not asking for 
more money out of greed but for need. A guaranteed annual source of 
revenue will allow us to plan for the future, which at this point is 
very, very difficult. Our shrimp fishermen recently took on imports and 
won. Yet they also face the loss of the estuaries which allow for the 
breeding and spawning of their valued catch. Lafourche Parish is also 
home to many sugar cane farms, which become the reservoirs during heavy 
rains.
    What is our future? Do we plan for retreat or do we continue to 
fight? Of course we will fight for Lafourche and southeast Louisiana. 
We have formed an organization with the acronym PACE-Parishes Against 
Coastal Erosion, comprised of parish presidents from 19 coastal 
parishes. Together we represent one half of the population of 
Louisiana. The National Association of Counties has participated in one 
of our meetings and recommended that the Federal Government recognize 
the concerns erosion is causing. The Breaux Act has funded numerous 
projects on our coast. We have allies in our fight, including other 
States which share our plight. But the most important relationship must 
be with the Federal government. Our parish and our State cannot fund 
the needed projects. We must use the funds derived from our coast to 
win this battle and keep us viable.
                                 ______
                                 
Statement of Jerome Zeringue, Executive Director, Terrebonne Levee and 
                         Conservation District
    Members of the committee, my name is Jerome Zeringue, I live in 
Houma, LA, and I am the Executive Director of the Terrebonne Levee & 
Conservation District. I thank you for the opportunity to speak to you 
today, and I welcome you to south Louisiana where a sinking feeling is 
not just an emotion but also an unpleasant fact.
    In Terrebonne Parish, we are losing our land, our resources, and 
our communities due to coastal land loss resulting primarily from 
subsidence, sea level rise, and salt water intrusion. Terrebonne Parish 
is the largest coastal community most exposed and vulnerable to the 
effects of high tides, high winds, tropical storms, and hurricanes. In 
any given year, we face a 60-65 percent chance of a `named' storm 
making landfall and impacting our State, and a 25-30 percent chance of 
a hurricane making landfall or affecting Louisiana.
    Terrebonne Parish has some of the most ecologically significant and 
productive habitat in the world. We have two of the top ten seafood 
docks in the United States in terms of dollar value and poundage 
harvested. We have oil and gas infrastructure that is vital to the 
State and the Federal economy. We have an increasing population and tax 
base with a healthy and productive economy. Frankly, we have people, 
infrastructure, and wetlands that need and deserve protection.
    I have worked for Louisiana State University as a fisheries 
biologist, I have worked for a non-profit environmental organization, 
the Nature Conservancy, and now with the levee district, a career path 
that on the surface may appear somewhat convoluted and disconnected, 
but in reality, considering the problems we face, a fortunate series of 
events. It has afforded me an opportunity to view the issues affecting 
our State from an academic, business, and environmental perspective; 
all of which must work together to turn back current trends and very 
dire predictions.
    Academically, we should deal with coastal land loss with practical 
research, capable of complementing and enhancing desperately needed 
projects. The academic community must work cooperatively to implement 
projects and share information with a focus on constructive research, 
not conducting studies simply for their intrinsic scientific value. 
Projects must be put on the ground to stem the ravaging effects that 
subsidence, sea-level rise and salt water intrusion impart 
continuously, even now as we discuss, debate, and study these issues.
    Fixing our problems will require the environmental community to 
accept seemingly unnatural, contrived, and untested projects in order 
to establish a functioning system that will enable systemic long-term 
solutions to the problems we face; keeping in mind that we are in this 
predicament because of unnatural, insensitive, and unintentional 
events, which should not be repeated, but may be necessary to achieve 
the preferred result.
    From an economic perspective, industries that have traditionally 
relied on convenience or unfettered access must understand that 
implementing necessary fixes will require sacrifices. It will 
necessitate changes in ways we traditionally conducted business, and 
rely on innovation and least damaging alternatives in oil and gas 
extraction and exploration, and adapting to changing fisheries 
resources that will result from habitat modifications.
    Unfortunately, our future will require a ``line in the sand'' drawn 
from a certain point. A point where we will stand and fight, retreat no 
more and do what we must to sustain ourselves. Just like the city of 
New Orleans, our coastal communities will require some form of 
protection through levees, walls, or embankments in order to survive. 
The line will be drawn, either by persistent degrading forces or 
through consensus. Coastal communities are retreating and we have lost 
several, and several more will not be around 20-40 years from now.
    In Terrebonne Parish, we face a land loss rate of 10 square miles 
per year. We have one of the highest land loss rates in the Nation and 
our line in the sand is the Morganza to the Gulf Hurricane Protection 
project. The Morganza Project will provide hurricane protection for 
Terrebonne and Lafourche Parishes, their 200,000 residents and 
infrastructure. The Morganza to the Gulf Project is a leaky system, 
which sounds odd if you consider this strictly as a flood protection 
system; however, leaky is the ideal way to build such a project in this 
environment. The obvious concern with building a project of this 
magnitude in coastal Louisiana is the potential impacts to wetlands, 
wetlands we intend to protect and restore. The Morganza Project is 
sensitive to these environmental concerns. We are designing this 
project in the most environmentally friendly way practicable. We will 
achieve this by constructing our levees, floodgates and environmental 
structures along existing hydrologic barriers, such as drainage levees, 
and adjacent roads minimizing impacts to wetlands and enhancing the 
existing hydrologic regime.
    In addition, the Morganza Project will provide flood protection 
capable of adaptively managing the wetlands within and around the 
system. The lynch pin of the whole project is the lock on the Houma 
Navigational Canal. The HNC Lock is the key feature necessary to 
protect, maintain, and restore wetlands within the Terrebonne Basin. 
This lock is considered a critical restoration component within the 
Coastal 2050 Plan, Louisiana Coastal Area Study, and by the Morganza 
Habitat Evaluation Team. These studies agree that the Houma 
Navigational Canal lock can effectively assist restoration efforts of 
adjacent wetlands in a systemic, comprehensive approach. The Houma 
Navigational Canal Lock is a case study of how a flood protection 
project feature can serve as an adaptive management tool.
    Initially, the Houma Navigational Canal lock was considered only as 
a Morganza Project component, designed to: protect thousands of 
residents and businesses from a 100-year storm event, provide safe 
harbor for navigation, protect the local drinking water supply, and 
reduce salt-water intrusion. The lock has evolved into a significant 
environmental structure which can substantially reduce the devastating 
impacts of salt water intrusion, maximize and efficiently utilize 
available freshwater from the Atchafalaya River to enhance, restore, 
and reestablish fresh and brackish water marsh within this coastal 
environment and oh, by the way, can protect the citizens from a 
category 3 storm event. The HNC lock will work collaboratively with the 
12 other environmental control structures along the Morganza alignment 
to protect and maintain wetlands within the Terrebonne Basin.
    We are anxiously waiting WRDA Authorization for remaining portions 
of this project that must be authorized. The citizens of Terrebonne 
cannot continue to wait, nor are they relying solely on Federal and 
State financing. In fact, we are the first south Louisiana community to 
pass a local tax to support coastal restoration. Our citizens have 
assessed themselves a cents sales tax generating over $4 million per 
year that can only be spent on the Morganza to the Gulf Project. Some 
may say that this is not coastal restoration but flood protection, but 
I can assure you that from where I come from we do not differentiate 
between the two. To us this project is coastal restoration.
    The Morganza to the Gulf project can serve as a model for designing 
a system that can protect people, infrastructure, and the environment. 
The Morganza Habitat Evaluation Team composed primarily of State and 
Federal regulatory agencies, will adaptively manage this project by 
manipulating floodgates and environmental structures throughout the 
project life. This dynamic ecosystem can never be managed by a one size 
fits all solution.
    We have a sufficient amount of information to begin putting 
restoration projects on the ground; the question is do we have the 
political will to get it done. To put into operation these large-scale 
projects included within the LCA study, it will require a trial and 
error approach, and we must understand that there will be failures. 
These efforts are necessary to achieve success. Unfortunately, 
someone's constituency or user group will be affected which could 
impact one's standing, government funding, and fear of legal 
prosecution. We must all have the courage and compassion to ensure that 
our efforts are successful. We are all too confident in the 
consequences of doing nothing; we cannot let the fear of uncertainty 
encourage inaction.
    I appreciate the efforts of Senator Vitter, and our Congressional 
delegation for funding included within the Energy bill, and I 
respectfully request your support and passage of WRDA, which will 
enable us to protect our coast and our citizens. Help us to hang on to 
a unique national treasure, an area rich in diversity, culture and 
resources.
    Benjamin Franklin said, ``When the well's dry, we know the worth of 
water.'' Let us not have to lose this valuable resource before the 
Nation truly appreciates its worth.
                                 ______
                                 
  Statement of Alexis Duval, Chairwomen of the Board, Houma-Terrbonne 
                          Chamber of Commerce
    Good Morning. My name is Alexis Duval. I am the board chair of the 
Houma-Terrebonne Chamber of Commerce. Thank you for the opportunity to 
be here this morning speaking on a topic of critical importance to all 
citizens of Terrebonne Parish. My comments this morning will be 
directed to the coastal situation affecting the Houma-Terrebonne area. 
I live in Houma which is about 55 miles southwest of New Orleans, as 
the crow flies.
    The plight of coastal Louisiana has been a topic of lengthy 
discussion and much concern for chamber members for many, many years. 
Coastal erosion crosses all barriers. It cuts through all spectrums of 
our society. It affects the economy, infrastructure, as well as the 
quality of our very lives. These effects are far reaching, they cross 
parish boundaries, they cross state boundaries, they effect the entire 
Nation.
    We have all heard the statistics relating the amount of land lost 
over time, as well as that being lost as we sit here in this very room. 
There is no other area in this great country that is losing land as 
rapidly as the Barataria-Terrebonne National Estuary. Terrebonne Parish 
constitutes a large portion of that estuary system.
    Terrebonne Parish is unique as to both the causes of its coastal 
erosion problem and the solutions needed to contain that very erosion. 
Please note I said contain. We are very aware that efforts need to be 
focused on maintaining the land mass we have in place and doing 
everything humanly possible to minimize, if not eliminate any future 
land loss.
    The causes have been studied and are well known. Lack of sediment 
deposits from natural flooding events eliminated by the containment of 
the Mississippi River and the Atachafalya River, salt water intrusion, 
sea level rise, subsidence, the unintended affects from oil and gas 
exploration, to name a few.
    Terrebonne Parish lies between the Mississippi River (to our east) 
and the Atachafalya River (to our west). Because we are so far removed 
from these two sediment sources, restoration efforts will be the most 
costly. It will take a large scale diversion project to help the 
eastern part of our parish, while smaller scale diversion projects have 
been studied for the western part of the parish.
    Due to lost land, Terrebonne Parish residents are more at risk from 
storm surge because unlike our neighboring parishes we have no 
hurricane protection levee. The chamber fully supports the LCA 
Restoration Plan, however, we recognize that any comprehensive 
restoration plan will take years to build and implement. Therefore, our 
greatest priority is to ensure that a hurricane protection levee is 
built which offers the most instant protection to life and property. 
Authorization for a hurricane protection levee, Morganza to the Gulf, 
is presently contained in the WRDA bill that will be considered by 
Congress in the next few months. It is vital to the safety and well 
being to the 100,000 plus citizens of Terrebonne Parish that the 
Morganza to the Gulf levee system is authorized and funded.
    Efforts for coastal restoration in Terrebonne Parish will not be 
successful unless the effects of the Houma Navigational Canal (``HNC'') 
are addressed. Running North-South the HNC cuts the lower half of our 
parish in two. The LCA near term plan does not authorize any major 
project for Terrebonne Parish. Major projects contained in the original 
LCA plan include major sediment diversion projects from the Mississippi 
traveling westward and the Atachfalya traveling eastward and a lock for 
the HNC. These large scale projects must be addressed and funded. The 
HNC lock is presently being designed.
    My husband and I are both life long residents of Terrebonne Parish. 
We raised our family in Terrebonne Parish. If I convey anything to you 
today, it is a plea for our safety and well being. As a business woman 
who is concerned for the well being of the infrastructure and economy 
of our parish, and as a mother, who is concerned for the safety of her 
family, my goal is to impart to you the urgency of our situation.
    Unlike a wildfire, earthquake, or tsunami, the disaster occurring 
in our parish is insidious. Since it is occurring gradually it has not 
drawn the attention of other natural disasters and we have let the 
problem fester until it has become malignant. Without a quick and 
decisive treatment this cancer will kill our community, and in the 
event of a major hurricane, will contribute to the death of many of our 
citizens.
    Monday morning as I watched the Channel 4 Eyewitness Morning News, 
I was struck by comments made by President Bush. The comments were part 
of a taped segment commenting on the President's scheduled talk to the 
Veterans of Foreign War. I quote, ``we must deal with threats before 
they fully materialize'' While I understand the President's remarks 
were made in context of the War on Terror, I found they applied to our 
coastal plight as well. Terrebonne Parish and all of coastal Louisiana 
are at war with Mother Nature and she has weapons of mass destruction. 
We are currently losing that war. Without large scale Federal help, we 
are doomed.
    I applaud the efforts of our congressional delegation, and 
especially Senator Vitter, for the passage of the Energy bill with the 
revenue sharing provision. I know you realize that that passage was 
only the first step. I, along with members of the Houma-Terrebonne 
Chamber of Commerce stand ready to help you in any way possible to 
ensure passage of a WRDA bill authorizing both the LCA and Morganza to 
the Gulf projects.
                                 ______
                                 
   Statement of Shea Penland, Director and Professor, Pontchartrain 
   Institute of Environmental Sciences, and Chairman, Department of 
           Geology and Geophysics, University of New Orleans
     the louisiana land loss crisis in america's coastal heartland
    Coastal Louisiana lost more than 1500 square miles of land in the 
20th century and the rate of loss has averaged 20 square miles per year 
since the 1990's. Coastal land loss threatens the existence of 
Louisiana's natural framework, its resource base and the human fabric 
of the United States in the Gulf of Mexico. Without the implementation 
of coastal restoration efforts in Louisiana proportional to the 
magnitude of loss, the largest river delta in America, the Mississippi, 
will erode and subside away beneath the waters of the Gulf. Without 
putting a massive program of land creation and ecological restoration 
into effect immediately, the existence of the Mississippi River's 
fertile crescent is threatened and endangered for generations to come.
              the causes of louisiana's coastal land loss
    The causes of coastal land loss in Louisiana are complex. In order 
to implement a successful regional coastal restoration program in 
Louisiana we must understand the causes of land loss. Regionally, 
hundreds of years of flood control, hydrologic modification, subsidence 
and storms are the overriding causes for the environmental collapse and 
loss of land in coastal Louisiana. Locally, on the time-scale of 
decades, oil/gas activities, navigation, and hurricanes have had the 
most devastating impact on Louisiana's coast.
                      coastal land loss solutions
    Since 1990 we have engaged in the use of a variety of restoration 
tools through the Coastal Wetland Planning, Protection, and Restoration 
Act (CWPPRA) of 1990. Concurrently, the State of Louisiana and other 
federal agencies have built site specific projects that have furthered 
our understanding and insight into our coastal restoration 
capabilities. From my perspective, we must practice Adaptive Management 
now as we move forward from coastal restoration projects of local-scale 
to a vision of regional coastal restoration in Louisiana.Our existing, 
future, and proposed coastal restoration programs must be integrated 
and synchronized. If the metric of our state's coastal crisis is land 
loss then our metric of success should be land gain. Between the 1980's 
and 1990's our federal partners measured the rate of coastal land loss 
at 20 square miles a year. After 15 years of CWPPRA and other Federal/
State restoration projects, these agencies indicate the rate of land 
loss continues at a rate of 20 square miles per year.
    Our restoration experience has demonstrated that some restoration 
tools were very effective and some did not perform as expected. An 
important lesson we learned from the implementation of these projects 
is that their social impacts cannot be ignored. Another important 
lesson learned is that the restoration tools we select must produce 
benefits on a generational or decadal time-scale. Diversions and other 
solutions using large-scale delta switching processes work on time-
scales of multiple decades or centuries, just as the Mississippi River 
built it's delta naturally over the last several millenniums. Dedicated 
dredging and pipeline slurry offer us the capabilities to build land 
quickly on a decadal scale without the adverse effects of large volumes 
of freshwater. Small diversion iversions offer the opportunity to 
sustain newly created landscapes after they are built.
    For the LCA ecosystem restoration plan proposed for authorization 
through the Water Resources Development Act of 2005, the Near-Term 
Critical Ecosystem Restoration Features provide the combined 
opportunity of dedicated dredging/pipeline slurry and diversions from 
the Mississippi River. Of particular interest is the LCA Barataria 
Basin Barrier Shoreline Restoration Feature NO. 3 which will provide 
our greatest opportunity to implement a regional pipeline slurry 
restoration project and to learn from this effort. The Fourchon 
Regional Restoration Initiative (FRRI), a consortium of the Wisner Land 
Donation, Chevron, Greater Lafourche Port Commission, Louisiana 
Offshore Oil Port, Barataria-Terrebonne National Estuary Program, 
Lafourche Parish, the City of New Orleans, and the University of New 
Orleans, has organized to support the implementation of this important 
project and to remove any scientific uncertainty that the LCA Barataria 
Barrier Shoreline Restoration Feature NO. 3 should be the first step in 
Louisiana's vision of regional ecosystem restoration through the WRDA 
of 2005.
        university of new orleans science and education support
    UNO is supporting these State and Federal coastal restoration 
initiatives through the establishment of the Center for Hazards 
Assessment, Response, and Technology (CHART) and the Pontchartrain 
Institute for Environmental Sciences (PIES). CHART and PIES provide 
expert science support for planning, project assessment, and adaptive 
management. Through UNO's Academic Departments new focused degree 
programs are being implemented to provide the critically needed 
education and training for the professional work force necessary to 
restore coastal Louisiana.
                                 ______
                                 
    Statement of Randy Lanctot, Executive Director of the Louisiana 
                          Wildlife Federation
    Mr. Chairman and Members of the committee:
    Thank you for your interest in the daunting problem of coastal land 
loss that confronts our State and Nation, and for taking the time to 
learn more about ongoing and proposed efforts to halt that loss and 
restore some of it back to functioning, productive coastal barriers and 
wetlands. My name is Randy Lanctot. I have been privileged to serve as 
executive director of the Louisiana Wildlife Federation, the state's 
oldest and one of its largest organizations of sportsmen and citizen 
conservationists, for more than 25 years. During that time, a lot of 
progress has been made in understanding the causes of coastal land loss 
and implementing strategies to combat it. But mostly what we have 
learned is that we are losing ground despite effective efforts, and 
that more and larger efforts must be applied to reverse the loss.
    If you have reviewed the Louisiana Coastal Area study (LCA), you 
know that much of the southern part of Louisiana was built by the 
deltas of the Mississippi River as it whipped back and forth over the 
continental shelf, and that land loss and land gain is normal for a 
delta system. But under natural conditions, loss is balanced by gain, 
and that loss and gain occurs slowly over hundreds and thousands of 
years--a time frame long enough to invite disregard for the future 
evolution and inevitable loss of delta lands. The immediate concern of 
the European explorers and immigrants to the region that is now South 
Louisiana was to keep floodwaters at bay, exploit the region's natural 
resources and establish commerce to support a growing society. That 
familiar paradigm is common to communities across America. But the 
Delta's remarkable abundance and dynamic and challenging geology sets 
Louisiana apart from them all. I might add that we are more than happy 
to be different because of our lively and creative cultures, our great 
musical heritage, our wonderful cuisine, and carefree life view--all 
nurtured by our unique location on one of the world's great deltas, but 
we are not so pleased to be different because we are the victims of 
losing our land to the sea.
    Land loss on a deteriorating delta is a natural process caused by 
wind, wave, tide, compaction of organic soils, subsidence and geologic 
faults. That loss is dramatically accelerated by the ``people 
effect''--dredging for access and navigation channels; removal of 
subsurface minerals; unenlightened engineering of bulkheads, channels 
and dredged spoil deposition; impoundments, leveeing that impairs 
natural, delta-sustaining hydrology and sediment delivery; sea level 
rise and vessel traffic--all of which are prominent contributors to 
coastal land loss. Many of these activities, of course, have kept us 
dry and generated products and wealth that have contributed to the 
local and national economies.
    I mentioned a ``deteriorating'' delta. It is important to keep in 
mind that we have settled in a delta whose river by now would have 
shifted its channel to a new and shorter route to the Gulf were it not 
for levees and water control structures that, along with channel 
maintenance, have directed the sediments that built the delta into the 
deep waters off the continental shelf. Understanding that informs the 
thinking behind many of the projects and concepts in the LCA.
    The impacts of coastal erosion are the loss of tens of thousands of 
acres of wetlands and headlands in a domino effect fashion; loss of 
real estate and its economic value; loss of wetland-based fish and 
wildlife habitat and its dependent wildlife and fisheries productivity, 
along with the related social and economic impacts of those losses 
(seafood, recreational hunting and fishing and other wildlife related 
recreation, tourism,) including employment opportunities; increased 
risk of flooding and associated costs of insurance and disaster relief; 
disruption and relocation of communities; outmigration of Louisiana 
citizens; increased costs to establish and maintain infrastructure, 
including infrastructure critical to energy production.
    The toll is in dollars, of course, but it is much greater than 
that. The particular interest of the Louisiana Wildlife Federation in 
coastal land loss is the inevitable loss of the fish and wildlife as 
their habitats disappear. As an organization that represents folks who 
are out in the field using and enjoying the natural resources of the 
state, we have a big stake in halting land loss and restoring the 
productive ecosystem that has made Louisiana the ``Sportsman's 
Paradise.''
    The LCA report presents a number of approaches to dealing with 
coastal land loss. One that has been rejected is GET OUT. Another is: 
Do nothing and take your chances. We concur with the LCA on that. But 
one consideration that deserves more emphasis is the need to rethink 
and reengage society's relationship with the Mississippi River Coastal 
Delta ecosystem to incorporate a larger measure of flexibility and 
uncertainty with respect to habitation and economic activity. We must 
adopt an attitude that will allow us to reconcile our expectations with 
the necessary changes we will have to make, as individuals and as a 
society, to achieve a sustainable coastal ecosystem. To put it bluntly, 
we have to be willing and prepared to get out of the way of the 
projects that will be needed to accomplish that task. In particular, as 
coastal restoration efforts impact coastal lands and waters, hunters, 
fishers, and other affected interests like landowners, will be called 
upon to cooperate and accept fair consideration for any 
disproportionate losses that they will sustain and that are inevitable 
as the kind of aggressive coastal restoration efforts that are needed 
are applied. So far, that road has been a little rocky, but hopefully, 
the lessons learned from the past will smooth the way for the future.
    ``Attitude is everything'' as the saying goes, and assuming all 
attitudes are adjusted to be in sync with the coastal restoration 
program, the solutions proposed by the LCA and efforts to follow can be 
accomplished, especially if we follow the fundamental foundation of 
success: ``First, do no harm.'' Activities that contribute to coastal 
land loss can be limited and or re/designed and re/engineered to reduce 
impacts. This applies particularly to dredging/navigation and levee 
work and activities that reduce stabilizing vegetative structure. 
Requiring that local, state, and federal activities/projects, including 
private activities that are regulated by Federal/State Government, are 
consistent with conserving and restoring the coast also falls under the 
``do no harm'' category. The LCA report contains an impressive 
statement of objectives and principles in Section 3.2 that is 
consistent with that concept in most respects and we commend the Corps 
for making that commitment.
    Other solutions are to remediate problems where feasible 
(backfilling/plugging canals, terracing and sediment accumulation 
[Christmas tree] projects to reduce erosion and rebuild shoreline and 
marshland); armor shorelines as a temporary fix to buy time to 
implement a systemic solution; armor channel banks and regulate vessel 
traffic to prevent bank erosion; apply all material dredged to 
establish or maintain navigation in a beneficial way to restore eroded 
vegetated wetlands; enhance stabilization of newly restored or created 
land with plantings of suitable native species of grasses and shrubs; 
strategically preserve/restore (assuming the availability of a safe and 
an economic source of sand) barrier islands that serve as the 
scaffolding for interior marsh restoration; within the water and 
sediment budget of the Mississippi River sufficient to support river-
borne commerce, divert as much river water and sediment as possible to 
establish vegetated wetlands in shallow coastal lakes and bays and 
sustain or restore freshwater flows in the most efficient manner (such 
as pulsing) to maintain wetlands along the isohaline line.
    With a little informed contemplation, stating the solutions to 
coastal erosion is easy. Getting the political and financial support to 
do the work is a little more challenging. So, in an effort to inform 
and educate the people from all around the United States about 
Louisiana and our coastal land loss challenge, Governor Blanco and the 
America's WETLAND Campaign initiated a new outreach effort this week--
``Save America's Wetland: Write Now'' to encourage all of us to let our 
friends and colleagues throughout America know about what is at stake 
here and how we all are bonded to the outcome. So, here is our effort 
to engage the members of the committee and citizens throughout the 
country in the hope that you will pitch in and lend a hand. Thank you 
for the opportunity to make this presentation.
    Close your eyes and imagine this beautiful, wonderful country of--
ours ocean to ocean, border to border. Imagine you are a drop of rain 
or flake of snow gathering a little bit of prairie soil, of Rocky 
Mountain granite, of piney woods' sand, or a tiny piece of golden leaf 
born deep in a hardwood cove at the foot of the Appalachians, caught in 
a torrent, rollercoastering down to the Ohio, the Tennessee, the 
Wisconsin, Illinois, Des Moines or Arkansas, the Missouri, the Red--on 
to the Big River as it bends and curls back on itself, down to the Gulf 
of Mexico.
    When you arrive on the Delta you join pieces and parts of the rest 
of America, nourishing a landscape that is more waterscape, thronging 
with birds and fish and wetlands as far as you can see. Someone says 
Comment ca va, mon cher? (How are you, my friend?), and you are home--
home to the coastal delta of the Mississippi River, an ecosystem so 
immense it is difficult to know and comprehend by experience so vast, 
productive, and unique in America that it only can be compared to 
itself.\1\
---------------------------------------------------------------------------
    \1\The Mississippi River has created and supports more coastal 
wetlands than occur anywhere else in the contiguous 48 States. World 
rank of the Mississippi River/tributaries in volume of discharge-6th, 
sediment discharge-3rd, length-2nd, aerial extent of drainage basin-3rd 
(receiving surface water runoff from 31 States and 3 Canadian provinces 
or 41 percent of contiguous United States).
---------------------------------------------------------------------------
    People have always come to the Delta to experience the bounty--the 
food, fun, revelry--to unwind. They know it by ``Laissez les bon temps 
rouler'', by the good times. It's no accident, or merely a consequence 
of aggressive tourism promotion. It's the cultural manifestation of the 
natural abundance served up by the River and the wetlands.
    To experience this immense ecosystem, you have to get in a boat, 
maybe a pirogue, and get out in it; but it can be rough going. This is 
no ``prairie pothole''. It goes on for thousands of acres and scores of 
miles as far as you can see. The first thing you notice, after the 
aroma of flatsedge and marsh grass and mudflats and brine (depending on 
where in the complex you happen to be) is the life; the birds--rails, 
stilts, waterfowl, herons/egrets, seagulls, terns, pelicans and masses 
of other waders and shorebirds. There's gators aplenty in the fresh and 
intermediate wetlands, more than anywhere else in the world. And bugs, 
of course--the food chain has to have its underclass. And, in season, 
there's solitude, serenity, sunrise and sunset punctuated with the 
often silent trading of the delta's dependent creatures.
    When its extent and biological productivity is considered, it is 
very apparent that this is an ecological engine of enormous 
proportions, a ``bread and butter ecosystem with no match in the 
``Lower 48''--and it's fading away--inexorably, insidiously, sometimes 
radically when the gulf gets nasty.
    The continuing loss of MRCD wetlands presents a severe threat to 
the infrastructure necessary to develop and transport energy resources. 
Pipelines traversing the wetlands supply 30 percent of the Nation's 
refining capacity and serve as the onshore base that provides 
logistical support for 75 percent of the oil/gas prospects in the Gulf 
of Mexico. Roads, domestic water supplies and communities that are home 
to two million people are threatened by the loss of MRCD wetlands.
    The navigation capacity of waterways currently carrying 16 percent 
of the Nation's waterborne commerce and the viability of four ports 
that, combined, handle more tonnage than any single port in the world 
is jeopardized by the loss of MRCD wetlands.
    There are over 500,000 acres of State and national wildlife refuges 
in Louisiana's coastal zone; five million migratory waterfowl winter in 
Louisiana --50 percent of the waterfowl using the Mississippi Flyway 
and 20 percent of waterfowl using all flyways. (In past years, up to 84 
percent of Mississippi Flyway migratory waterfowl have wintered in 
Louisiana.) The ongoing massive disintegration of MRCD wetlands 
threatens this world class habitat for migratory birds and the nursery 
for coastal and Gulf of Mexico fish that supports the entire Gulf 
region. Estimates of the value of the natural resources that will be 
lost over the next 50 years due to coastal wetland loss range up to 
$100 billion.
    The loss of Mississippi River coastal delta wetlands is due 
primarily to the alteration of the natural geology and hydrodynamics 
that created the ecosystem. Channels and levees for navigation and 
flood protection have disrupted the capability of the system to 
maintain itself. The River, which once overflowed its banks on a 
routine basis, now is confined to a channel all the way to the deep 
water at the edge of the continental shelf where its load is discharged 
and lost to the fathoms of the Gulf and therefore, the freshwater and 
sediment that built the MRCD wetlands are no longer available to 
sustain them, to offset their natural erosion and subsidence. These 
facts make coastal restoration using the River and its freshwater and 
sediment doable.
    That's the plan. Will you help?
                                 ______
                                 
       Statement of Roy Francis, Executive Director LA1 Coalition
    Mr. Chairman and members of the committee, my name is Roy Francis, 
and I am the Executive Director of the LA1 Coalition, Inc. The 
Coalition is a non-profit organization created in 1997, by community 
leaders with one goal--improve the infrastructure servicing Port 
Fourchon, LA. The founding members realized the threat to this critical 
energy infrastructure due to coastal land loss.
    I have worked in coastal zone management, flood protection and 
coastal infrastructure since I obtained my degree in geology in 1992. I 
feel I have come to understand the ripple effect of coastal land loss 
to infrastructure and the industries associated with oil and gas 
production. Coastal land loss is not only threatening our environment, 
but our very existence as a community.
    One of the greatest threats to infrastructure is to Louisiana 
Highway One, a two-lane winding road that is the only means of land 
access to Port Fourchon, which currently services approximately 16 
percent of this Nations energy supply. LA1 is only three feet above 
sea-level and is subject to 8 to 10 foot storm surges. The highway 
provides access for 6,000 offshore workers and their equipment to 
support 75 percent of Federal OCS activities in the Gulf of Mexico.
    The Leeville Bridge, the weakest link of LA1, was built in 10 feet 
of water. It now exists in 40 feet of water. It is the most scoured 
bridge in the State due to the water exchange between the Barateria and 
Terrebonne basins. All the land that surrounded the bridge has 
disappeared.
    There is now a real threat to the oil and gas structures built on 
land that is no more. Hundreds of structures producing energy everyday 
and thousands of miles of pipeline buried underground are now exposed 
in open water. The pipelines are threatened by wave energy and impact 
from marine vessels everyday.
    One of the major oil and gas companies that operates at Port 
Fourchon, transports over 600,000 barrels of oil through pipelines in 
coastal Louisiana. They spend nearly $5 million per year reacting to 
coastal erosion; repairing bulkheads, relocating pipelines and marking 
pipeline crossings. Another company's main offshore support base is in 
Leeville, an area that has sank 14 inches in the last 20 years.
    Not only is the country's domestic supply threatened, but 13 
percent of this nation's imported crude oil is offloaded at Louisiana 
Offshore Oil Port (LOOP) located in the coastal area of Lafourche 
Parish. The 48 inch pipelines are connected to 35 percent of United 
States' refinery capacity. Remember, a refinery has not been built in 
this country in decades and today are operating at 96 percent capacity.
    The impact to LA1 affects more then the Nation's energy production. 
This highway was built on the Bayou Lafourche Ridge and is the now the 
dividing line between the Nation's two most productive estuaries--the 
Barataria and the Terrebonne basins. About 20 percent of the state's 
total catch goes to market by way of LA1--in a State that leads the 
lower 48 in fisheries production. The loss of these wetlands is a loss 
to fisheries production.
    Another impact is to our water supply. In 2000, saltwater intruded 
into Lafourche Parish's water pumping system 50 miles inland via a 
channel in a neighboring parish. For the first time, the people of 
South Louisiana had a taste of coastal land loss. The paper mill had to 
shut down, and the oil and gas industry which uses over 20 percent of 
the parish's water supply for drilling activities was affected. We 
couldn't drink the water, and the children bathed in saltwater. All of 
this could have been avoided with a lock/floodgate on this channel.
    Our flood protection levee systems are also at risk. Historically, 
the marshes would act as buffers for wave energy against the base of 
the levees. Today, open water surrounds parts of the levees, and daily 
wave action is eroding the earthen ring levees. The flood gates on the 
levees have to be closed earlier and more often, trapping marine 
vessels outside of levee systems.
    The Louisiana coast is a blue collar coast. It is not a place we 
visit. It is the place were we live, work and play. It is no longer 
just about the birds and the plants. Coastal land loss is now affecting 
every aspect of our lives.
                                 ______
                                 
   Statement of John Lopez, Director of Coastal Sustainability, Lake 
          Pontchartrain Basin Foundation, Metairie, Louisiana
    Good Morning and thank you for the opportunity to provide testimony 
to this esteemed committee. My name is Dr. John Lopez and I'm director 
of coastal Sustainability for the Lake Pontchartrain Basin Foundation. 
The Lake Pontchartrain Basin Foundation is a private, non-profit 
organization whose mission is to restore and protect the Lake 
Pontchartrain Basin in Southeastern Louisiana. My comments today are a 
summary of our draft Comprehensive Habitat Management Plan for the 
Pontchartrain Basin.
    The greater Pontchartrain Basin includes a watershed extending 
southward from central Mississippi to the distant wetlands at the mouth 
of the Mississippi River in southern Louisiana. The Pontchartrain Basin 
in Louisiana was analyzed to establish the habitat baseline conditions, 
historical impairments and future restoration needs. The objective of 
the Comprehensive-Habitat Management Plan is to present a blueprint for 
restoration that will direct progress toward restoring the historic 
form and function of the Pontchartrain Basin habitats in Louisiana.
    The Pontchartrain Basin ecology is dominated by an estuarine system 
that is essential to the future of southeast Louisiana. The 
Pontchartrain Basin is 19 percent (9,700 square miles) of Louisiana's 
area and has within it 46 percent of the State's population (or 2.1 
million people). Based on imagery from 1992 to 1995, the entire basin 
was estimated to hold 2,100 square miles of marshes and swamps 
(including the Pearl River alluvial swamps) (Handley and others, 2001). 
If you include open water lakes with the wetlands that altogether 
compose the Pontchartrain Basin estuary, the extent of the estuary is 
5,800 square miles. From 1932 to 2001, 415 square miles of these 
wetlands were converted to open water or upland habitat, and we have 
discovered that the rate of loss has dramatically increased in the last 
decade (1990-2001). Because the Pontchartrain Basin contains the great 
port cities of New Orleans and Baton Rouge, the fate of the 
Pontchartrain Basin is of national significance. Decades of poor 
stewardship of the region's natural resources triggered the founding of 
the Lake Pontchartrain Basin Foundation (LPBF) in 1989, which was given 
the mission to restore and preserve the Pontchartrain Basin.
    In 2004, a Comprehensive Habitat Management Plan (CHMP)-Draft 
Committee was created to evaluate impairments and restoration 
alternatives for habitats in the Pontchartrain Basin. This included 
representation from the U.S. Army Corps of Engineers, U.S. Fish and 
Wildlife Service, Environmental Protection Agency, LSU Ag Center, 
University of New Orleans, Southeastern Louisiana University and 
Louisiana Department of Natural Resources along with the Foundation.
    The committee began deliberations in January 2004 and submitted a 
draft report to 11 expert 3rd party reviewers in July 2005. The 
reviewers individually reviewed the CHMP draft report or appropriate 
sections related to their expertise. Their comments were reviewed and 
appropriate changes were made by the CHMP Draft Committee. Public 
meetings are to be held, in which the draft report will be presented.
    The Pontchartrain Basin habitats range from pine upland to 
estuarine to marine. For purposes of CHMP plan development, the Basin 
was divided into four Sub-basins including: Upland Sub-basin (north of 
Interstate 12), Upper Sub-basin (Lake Maurepas region), Middle Sub-
basin (Lake Pontchartrain region) and Lower Sub-basin (St. Bernard and 
Plaquemines Parishes). The following section summarizes the proposed 
restoration for each of the four Sub-basins.
    upland sub-basin forest recommendations (north of interstate 12)
    The overall goal in the Upland Sub-basin is to expand the current 
range of long-leaf pine upland forests, flatwood savannahs and 
associated habitats while expanding the awareness of these lost 
habitats to a public which has never known the park-like virgin pine 
forests. Specific goals call for expansion of existing conservation 
areas to a minimum of 5,000 acres each and creation of one or two large 
conservation areas (ca. 50,000 acres each) where landscape-scale, fire-
dependent ecosystems can be re-established with indigenous flora and 
fauna. Establishment of a prescribed fire council is recommended as a 
key means to facilitate and expand effective use of prescribed fire. 
The red-cockaded woodpecker and other rare, threatened or endangered 
species warrant additional efforts to reestablish long leaf pine and 
associated habitat and expand their populations.
   upland sub-basin riverine recommendations (north of interstate 12)
    The rivers and streams of the north shore are highly degraded and 
their history of environmental impacts is poorly documented. A primary 
recommendation is to document historical and ongoing impacts from 
mining activities in particular. Many mine sites (sand and gravel 
dredging) should be targeted for remediation to improve riverine 
habitats and water quality. Freshwater mussels have been significantly 
reduced and further protection and habitat restoration is necessary to 
re-establish the range of mussels including the endangered inflated 
heelsplitter mussel (Potamilus inflatus). In addition to mining, the 
Bogue Chitto and Pearl Rivers have been impacted by the Pearl River 
Navigation project. Hydrologic restoration is recommended to re-
establish the natural migration of fish, including the threatened Gulf 
sturgeon (Acipenser oxyrinchus desotoi).
         upper sub-basin (lake maurepas and adjacent wetlands)
    It is recommended that the area of wetlands in the Upper Sub-basin, 
which lies on or adjacent to the natural levee of the Mississippi 
River, be reestablished with its natural connection to the river by 
spring reintroductions into the wetlands. These alluvial river swamps 
would be sustained by several small diversions recommended between 
Baton Rouge and Garyville where the Hope Canal project is to be 
constructed. The reintroductions are intended to increase plant growth 
(primary productivity) and rebuild a mature Bald cypress--Tupelo 
(Taxodium distichum-Nyssa aquatica) swamp. The benefited areas should 
be in conservation. Breaching of the bank of the Amite River Diversion 
Canal is recommended to increase circulation into the adjacent swamp. 
It is recommended that the wetlands north of lake Maurepas be optimally 
managed using treated sewage or stormwater runoff, where appropriate, 
to introduce nutrients and freshwater.
    Several position statements are also included for the Upper Sub-
basin. Key statements are the continued ban on shell dredging and any 
commercial dredging within Lake Maurepas. The continued use of 
pipeline/powerline corridors is supported. The policies recommended by 
the state's Science Working Group for Coast Wetland Forests are 
supported, but it is also recommended that through acquisitions or 
other means cypress logging is discontinued in non-sustainable 
``relic'' forests and that a moratorium is placed on other areas of 
cypress logging in the Pontchartrain Basin until BMP's are implemented 
assuring sustainable harvest of cypress forests. Avoidance, BMP's and 
local mitigation are recommended to prevent further loss of wetland 
habitat by urbanization.
      middle sub-basin (lake pontchartrain and adjacent wetlands)
    The wetlands positioned between Lake Pontchartrain and the 
Mississippi River are considered vital to sustaining the ecology of 
lake Pontchartrain because it is through these wetlands that river 
reintroductions may occur most beneficially to Lake Pontchartrain. Re-
establishment of the detrital food base for Lake Pontchartrain can be 
accomplished by freshwater reintroductions into these wetlands to 
stimulate primary productivity and detrital export. As a result, the 
Lake is expected to increase in secondary productivity and fisheries. 
Several small diversions are recommended, including three local wetland 
reintroductions, which use the Bonnet Carre' Spillway corridor.
    Segments of Lake Pontchartrain's natural shoreline (littoral) 
habitat should be restored along the south, southeast and northwest 
shorelines. This recommendation includes marsh creation and re-
expansion of SAV extent. Some other key local projects are the 
restoration of estuarine fisheries in Bayou St. John and an interim 
project to construct a sill in the Inner Harbor Navigation Canal (IHNC) 
or Lake Pontchartrain, which would reduce the 100 square-mile dead zone 
and restore environmental benefit provided by clams. Avoidance of 
wetlands, BMP's to reduce wetland impact, and local mitigation when 
wetlands are impacted are the recommended order of priority to prevent 
further loss of wetland habitat by urbanization.
    Several position statements are also included for the Middle Sub-
basin. Key statements are the continued ban on shell dredging and any 
commercial dredging within Lake Pontchartrain. The continued use of 
existing pipeline/powerline corridors is supported for justified 
expansion of these facilities. The continued ban on new oil and gas 
leasing in Lake Pontchartrain is supported as is the limited use of 
gill nets as currently legislated. Continued improvements to sewage 
treatment and stormwater systems are strongly endorsed for both the 
north and south shores of Lake Pontchartrain. Beneficial use of treated 
sewage and stormwater should be pursued wherever wetlands and water 
quality may be enhanced. The Coastal Wetlands Planning, Protection and 
Restoration Act (CWPPRA) has a successful nutria bounty program and is 
supported. However, more vigorous efforts are recommended to reduce 
other invasive species such as the Chinese tallow (Sapium sebiferum).
         lower sub-basin (st. bernard and plaquemines parishes)
    The single greatest man-induced impact to the Pontchartrain Basin 
estuary was the construction of the federally authorized and operated, 
deep-draft navigation channel known as the Mississippi River Gulf 
Outlet (MRGO). The MRGO has triggered major shifts in habitats and 
fisheries, caused wetland loss, increased salinity intrusion and 
created a 100 sqare mile dead zone in Lake Pontchartrain. The total 
area affected by the MRGO is estimated to be 618,000 acres.
    Therefore, the paramount restoration feature of the Lower Sub-basin 
is to restore the integrity of the Bayou la Loutre ridge by reducing 
the Mississippi River Gulf Outlet (MRGO) navigation channel dimensions 
to Intracoastal Waterway width and depth at the Bayou la Loutre ridge. 
Contraction of the MRGO channel would directly improve the environment 
by reducing ship wakes and reducing the dead zone in Lake 
Pontchartrain, but also allows the essential opportunity to manage the 
marshes east of the MRGO with river reintroductions. A larger river 
diversion is recommended at Violet which, along with the contraction of 
the MRGO channel, will be designed to reestablish historic habitats of 
Lake Borgne, Biloxi marsh and, (if supported by Mississippi) 
Mississippi Sound. Discharge from the Caernarvon freshwater diversion 
may be increased slightly to achieve habitat goals. All reintroductions 
are recommended to mimic the natural spring flooding with maximum flow 
from April to June.
    The ecologic function of the Chandeleur-Breton barrier island chain 
should be maintained. The role of these islands in reducing wave energy 
and protecting interior marsh, such as the Biloxi marsh, from wave 
erosion should be considered in the need and design of barrier island 
restoration.
    The delta region of the Lower Sub-basin should be restored through 
natural and cost effective projects due to the historic and ongoing 
high rates of wetland loss. Crevasse projects and sediment diversions 
are recommended. The proposed Sediment Trap project (CWPPRA) in the 
Mississippi River should be moved upriver to target areas of need and 
to be where the soil foundation is superior. If a large scale study of 
the delta is undertaken to examine alternatives such as ``hang-a-left'' 
or ``hang-a-right'', which would remove navigation from the lower river 
by a new dredged channel located east or west of the Mississippi River, 
the alternative of selectively closing passes should be evaluated.
                        research and data needs
    Critical research and data needs have been identified for the 
Pontchartrain Basin. This list of 23 items is not meant to be all 
inclusive but contains significant apparent deficiencies that were 
identified during discussions and analyses by the draft committee. This 
list is intended to guide research to further the understanding of the 
nature of the Pontchartrain Basin habitats and how these habitats might 
be restored and sustained. The list includes: Annual mapping of the 
Lake Pontchartrain dead zone; Economics of coastal wetland forests; 
Fish assemblage research; Acquisition of bathymetry of lakes and 
passes; Barrier island ecology; Rangia clams in St. Bernard and 
Plaquemines Parishes; Natural oyster reefs; MRGO habitat quality; 
Analysis of accelerated wetland loss; Non-commercial species in St. 
Bernard and Plaquemines Parishes; blue crab (Callinectes sapidus) in 
Lake Pontchartrain; West Indian Manatee (Trichechits manatus); Rio 
Grande Cichlid (Cichlasoma cyanoguttatum) threat, Striped Bass (Morone 
saxatilis) and Gulf sturgeon (Acipenser oxyrinchus), Sea turtles on 
barrier islands; Hydrologic modeling for habitat restoration; Impact of 
poorly planned growth; Identification of biotic hotspots; Copper 
contamination in Lake Pontchartrain; Sand and gravel mine impact; 
Subsidence and relative sea-level rise; Mississippi River Delta 
management study: and a 10-year reoccurring comprehensive habitat 
inventory.
    Thank You. That completes my formal comments.
  

                                  <all>

</pre></body></html>
